<html>
<title> - MILITARY CONSTRUCTION, VETERANS AFFAIRS, AND RELATED AGENCIES APPROPRIATIONS FOR 2013</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
     MILITARY CONSTRUCTION, VETERANS AFFAIRS, AND RELATED AGENCIES 
                        APPROPRIATIONS FOR 2013

                              ----------                             
                                         Wednesday, March 21, 2012.

                     DEPARTMENT OF VETERANS AFFAIRS

                                WITNESS

HON. ERIC K. SHINSEKI, SECRETARY OF VETERANS AFFAIRS

                      Chairman's Opening Statement

    Mr. Culberson. The Appropriations Subcommittee on Military 
Construction and Veterans Affairs will come to order. It is a 
privilege to have with us today the Secretary of the Veterans 
Administration, Eric Shinseki, who is accompanied today by 
Robert Petzel, Under Secretary for Health; Allison Hickey, 
Under Secretary for Benefits; Todd Grams, who is the Executive 
in Charge for the Office of Management and Chief Financial 
Officer for the VA; Steve Muro, Under Secretary for Memorial 
Affairs; and Roger Baker, Assistant Secretary for Information 
and Technology.
    We are on this subcommittee, as everyone knows, united arm 
in arm in support of our veterans. It is a real privilege for 
me to serve as the chairman of this extraordinary subcommittee 
with the vitally important task of making sure that not only 
our men and women in uniform have as few worries as possible 
when it comes to their living accommodations and their health 
care, but that our veterans are as worry free as we can 
possibly make them.
    It is a real privilege to have you with us here today, Mr. 
Secretary. We thank you for your service to the Nation, and 
your continuing service to the Nation now on behalf of the men 
and women who once served under your command. It is a truly 
worthy capstone to your distinguished career, and we on this 
subcommittee are committed to doing everything we can to 
support you and the work that you do.
    I am immensely fortunate to have an abundance of talent on 
this subcommittee to help in this important work. I am 
especially pleased to work alongside my good friend from 
Georgia, Mr. Sanford Bishop, whom I would like to recognize at 
this time for any opening statement he would like to make.
    Mr. Bishop. Thank you very much for yielding, Mr. Chairman.

                    Statement of the Ranking Member

    Mr. Secretary, lady and gentlemen, we are grateful for your 
distinguished service to our Nation, Mr. Secretary, you as a 
soldier, as Chief of Staff of the Army, and now as Secretary of 
Veterans Affairs. There is no budget more deserving of our 
attention than the VA budget, and we have asked a new 
generation of heroes to sacrifice on behalf of our country, and 
we have an obligation to take care of them when they come home.
    As these wars that have been fought over the past decade 
come to a close, our service members will be coming home to 
face very, very difficult issues. For example, veteran 
unemployment is nearly twice the national average. Young 
veterans who joined the military after high school who went off 
to war are at a disadvantage now when competing for civilian 
jobs with peers who did not serve. One out of every three Iraq 
and Afghanistan veterans suffers from PTSD, traumatic brain 
injury or a combination of the two. In addition, on returning 
home, they are not receiving many times proper medical and 
psychological evaluation or counseling, and the help is not 
always easy to find, and it is very difficult to access.
    There is a backlog of 1.2 million claims at the VA. The 
application process still remains complicated, and the veterans 
are not automatically enrolled in the VA, as many in the public 
think that they are, when they finish their service. Most of 
the veterans need help finding the VA facilities, completing 
complicated application forms, tracking the application 
process, appealing rejected claims, and many of the disabled 
veterans who are unable to work due to war trauma are waiting 
months and even years for the benefits that they were promised 
and that they have earned. Of course, this results in a lot of 
financial problems for the veterans, which can end up with 
their being homeless and sometimes worse.
    A third of all homeless citizens in America are veterans, 
and due to many of the factors that I raised earlier, a lot of 
them with distinguished and heroic military records have ended 
up living on the streets because of untreated PTSD, TBI or 
self-medication with drugs and alcohol. So I believe that the 
VA in the near future will see a huge increase of veterans 
returning home to claim their benefits.
    The situation that the VA is confronted with is pretty 
serious, but I believe, Mr. Chairman, that the witness before 
us today, Secretary Shinseki, is the right man for the job, and 
I believe he is making progress. So I look forward to his 
testimony, and because I want to hear what we are doing right 
and what we can do better, we are looking forward to the 
testimony.
    Of course, the willingness with which our young people are 
likely to serve in any war, according to George Washington, no 
matter how justified, is directly proportional to how they 
perceive the veterans of earlier wars were treated and 
appreciated. So I hope as we move through the process, George 
Washington's words will resonate with the committee, and that 
we will continue to do all that we can do for our Nation's 
veterans.
    Thank you for indulging me, but I wanted to get that off my 
chest.
    Mr. Culberson. That is a wonderful quote from President 
Washington that we should all remember. That is terrific, 
terrific guidance.
    I think, if I may, we are delighted to be joined by our 
distinguished chairman of the full committee. It is a privilege 
to serve alongside you, sir, and it would be my privilege to 
recognize the gentleman from Kentucky at this time for any 
brief opening remarks he would like to make.
    Mr. Rogers. Well, thank you, Mr. Chairman. Thank you for 
yielding time.
    Mr. Secretary and your colleagues, thank you for being with 
us today. This subcommittee knows that you come before us today 
representing our Nation's veterans. We must begin by 
acknowledging their fine service, dedication, patriotism and 
sacrifice. Since the creation of this great country, our 
citizens have answered the call to serve in order to protect 
our freedom and our liberty.
    In recent years we have seen a different kind of threat to 
our independence in our escalating fiscal crisis. This 
committee has been front and center in attempting to address 
the very real security threat posed by out-of-control 
Washington spending and trillion-dollar deficits now every 
year.
    Last year this committee worked to restore transparency, 
austerity, and tough oversight to the appropriations process, 
and we succeeded in reducing discretionary spending by some $95 
billion since fiscal 2010, something we have not achieved since 
World War II. We have got to continue to provide strong 
oversight and control spending to ensure that the American 
people, our troops and our veterans are getting the greatest 
value from each and every precious tax dollar that we spend.
    Despite this committee's best efforts to responsibly reduce 
discretionary spending, it is mandatory spending costs that are 
the largest driver of our debt. Two-thirds of all Federal 
spending is now entitlements. Only one-third runs through this 
committee, the Appropriations Committee. Mandatory spending 
continues to skyrocket and put the future solvency of many 
programs in jeopardy. I remain deeply concerned that the more 
problems we have with mounting debts and runaway mandatory 
spending, the harder it is to keep our commitment to our 
Nation's veterans.
    Your Department and your budget we will be discussing in 
detail today provides the funding for VA medical care, 
compensation and benefits, as well as education benefits, 
vocational rehab, and housing loan programs. We have the 
responsibility to ensure that after serving our Nation with 
dignity and honor, our Nation's veterans receive the best care 
possible.
    Along with other members of this subcommittee, I am 
particularly concerned about current disability claims backlogs 
at VA. I realize that you have plans to harness the power of 
technology with paperless claims processing and improve the 
business processes to reduce that backlog, but it is simply not 
acceptable that 60 percent of current claims take more than 125 
days to process, and that number will only drop to 40 percent 
of claims in 2013.
    I am also concerned about providing adequate employment 
assistance to veterans, especially with the thousands of new 
veterans expected from the proposed DOD drawdown. Unemployment 
rates across the country remain too high, and prospects for our 
young Operation Enduring Freedom/Operation Iraqi Freedom 
veterans are not encouraging. I would be interested to hear 
about your plans to provide education and training, 
rehabilitation, and readjustment counseling to make their 
transition to civilian life as smooth as possible to honor the 
great service they rendered our country.
    Finally, Mr. Secretary, as you and I have discussed 
briefly, prescription drug abuse is our Nation's fastest-
growing drug problem. CDC says that it is an epidemic, and I 
know that from my district certainly, and I would guess that 
most other Members have the same problem. Our warfighters 
coming home from the war with severe injuries are unfortunate 
candidates for potential abuse. In the fiscal 2012 
appropriations bill, this subcommittee afforded the VA drug 
data-sharing capabilities with State prescription monitoring 
programs. Forty-eight States now have a prescription drug 
monitoring agency in the State government that helps with this 
problem, and it is incomplete unless VA plugs into that 
existing program, which is proving to be very effective. So I 
look forward to hearing how you would like to move forward in 
that regard in integrating your programs with the State 
prescription drug monitoring programs.
    I appreciate your service both before and during your 
present tenure, and we wish for you the best, and this 
committee, this subcommittee especially, stands ready to help 
you help our veterans. Thank you.
    Mr. Culberson. Thank you very much, Mr. Chairman.
    Mr. Culberson. It is my privilege to introduce the 
distinguished ranking member from Washington State Mr. Dicks.
    Mr. Dicks. Thank you, Chairman Culberson. It is good to be 
here with you today as we consider the administration's VA 
budget request. This subcommittee has always been a great 
source of bipartisanship within the Appropriations Committee 
for good reason, and I look forward to continuing the spirit of 
bipartisanship with you again this year, Mr. Chairman.
    Mr. Secretary, it is good to see you again, and I want to 
take a moment to express my thanks to you for your deep 
personal commitment to our Nation's military veterans. As you 
know, I have been involved in the effort to assure that 
returning servicemen and women are appropriately screened for 
symptoms of post-traumatic stress disorder and traumatic brain 
injury, and I would be--of course, Chairman Young and Chairman 
Rogers have also been there on these important issues. This is 
a wrenching issue for the Army in particular at this time as it 
is dealing with the tragic shootings of civilian families in 
Afghanistan allegedly by a soldier who was apparently suffering 
from the stress of multiple deployments in Iraq and 
Afghanistan. However this situation is resolved, it is apparent 
that the trauma of war will have a lasting impact on thousands 
and thousands of returning service people as they remain in the 
Active Force and afterward as they transition to VA medical 
care.
    I am convinced, Mr. Secretary, that you fully understand 
the challenge that healing the wounds of the Iraq and the 
Afghanistan war will not be easy, and that it will require 
attention to the delay and often ignored psychological wounds 
at the same time the physical wounds are addressed. So I 
appreciate your long standing concern both as an Army leader 
and now in the VA for the people who are truly the backbone of 
our national defense.
    Now, as for the budget request, I am pleased that the 
administration has submitted such a robust request. With the 
other subcommittees we have been used to large cuts and 
reductions in discretionary funding; however, the VA request 
actually proposes a 4 percent increase in discretionary 
appropriations over last year.
    I am pleased to see your continued support and leadership, 
Mr. Secretary, in ending veterans' homelessness by 2015. I know 
that a great deal of progress has been made throughout your 
tenure, and your coordination with HUD, Department of Labor, 
and others is critical to ensuring its ultimate success. And 
you and I have talked about the VASH program, and this is one 
that is really working. It is a program that is funded by HUD, 
but there is a coordination between HUD and VA that has really 
helped a lot of homeless veterans, and I look forward to 
continuing to work with you on that particular program.
    Thank you, Mr. Chairman.
    Mr. Culberson. Thank you very much.
    It is my privilege now to recognize the chairman of our 
Defense Appropriations Subcommittee, the gentleman from 
Florida, Mr. Young.
    Mr. Young. Mr. Chairman, thank you very much.
    Mr. Secretary, welcome to you and your team here today. 
Ever since we first met in Bosnia and you were a strapping 
young general running a very successful military operation, you 
have been one of my heroes, and I just appreciate the fact that 
you dug your heels into this Department of Veterans Affairs, 
and you are solving as many problems as you can, getting rid of 
the backlogs the best that you can.


                           budget submission


    And in the event that we are going to be disrupted by votes 
this afternoon, I am just going to raise one issue and then 
submit some record questions for you, if you don't mind, and 
that is on the budget submission, I noticed that the inspector 
general's office would be reduced in size by--I think about 
six--only by about six people, but I am wondering why, because 
this is probably the best investment that we make here other 
than taking care of our kids. The return on investment for the 
inspector general is--in 2009, we got back $38 for every $1 
that we invested in the IG program, and in 2011 we got back $76 
for every $1 that we invested, not to take into account the 
number of prosecutions of fraud that we have seen, people that 
have gone to jail because they ripped off the taxpayers and 
ripped off the VA. So I am wondering if there would be any 
objection that we have--maybe reinstate a little bit of that IG 
money because it does bring a good return on investment.
    But I am going to give you a written statement and a 
written question on that in the event that the votes disturb 
our schedule.
    So, Mr. Chairman, thank you very much, and thank you for 
being such a good chairman of this subcommittee.
    Mr. Culberson. Thank you very much, Mr. Chairman, and 
Chairman Rogers, all our distinguished members in this 
subcommittee. We are immensely proud to serve on this committee 
to help you, sir, in your work. Look forward to your testimony, 
look forward to you summarizing your testimony. Your statement 
will be submitted into the record in its entirety.
    We again thank you for your service and welcome your 
testimony today, sir. Thank you.

                        Statement of the Witness

    Secretary Shinseki. Chairman Culberson, thank you. And, 
Chairman Rogers, Chairman Young, Ranking Member Bishop, Ranking 
Member Dicks, other distinguished members of this subcommittee, 
thank you for this opportunity to present the President's 2013 
budget and 2014 advanced appropriations requests.
    I would also like to acknowledge the veterans service 
organizations, some of whom may be represented here today, as 
they are a part of our mechanism for understanding, getting 
another voice of what a veteran's needs are out there. Their 
insights have been helpful in developing and resourcing and 
improving our programs to better care and serve veterans, their 
families, and survivors.
    This subcommittee has been unwavering in its support for 
our Nation's veterans. For three budgets now the President has 
clearly demonstrated his priority for the requirements of this 
Department, and you have supported him. With these 2013 budget 
and 2014 advanced appropriations requests, the President once 
again firmly demonstrates his respect and sense of obligation 
for our Nation's 22 million veterans. I thank the members of 
this committee for your long-standing commitment to veterans, 
and I again seek your support on these requests.
    Mr. Chairman, thank you for introducing the members who are 
sitting here with me from my panel, and thank you for accepting 
my written statement for the record.
    An important transition is under way, and VA must 
anticipate its outcomes. Our troops have departed Iraq, and 
their numbers in Afghanistan are expected to decline. History, 
our history, suggests that VA's requirements, veterans who will 
need our care and services, our requirements will continue to 
grow long after the last combatant leaves Afghanistan, perhaps 
for another decade or more.
    In the next 5 years, more than 1 million service members 
are expected to leave the military. Through September 2011, of 
the approximately 1.4 million veterans who deployed to and 
returned from Afghanistan and Iraq, some 67 percent have used 
at least one VA benefit or service at some time, a far higher 
percentage than previous generations.
    The President's 2013 VA budget request of $140.3 billion 
provides $64 billion in discretionary funding and $76.3 billion 
in mandatory funds. Our discretionary budget request represents 
an increase of $2.7 billion, or 4.5 percent, over the 2012 
enacted level. This request would allow VA to fulfill the 
following requirements of our mission, including health care 
for 8.8 million enrolled veterans, compensation and pension 
benefits for nearly 4.2 million veterans, life insurance 
covering 7.1 million Active Duty service members and enrolled 
veterans at a 95 percent customer satisfaction rating, 
educational assistance for over 1 million veterans and family 
members on over 6,500 campuses, home mortgages that guarantee 
over 1.5 million service member and veteran loans with the 
Nation's lowest foreclosure rate, burial honors for nearly 
120,000 heroes and eligible family members in our 131 national 
cemeteries befitting their service to the Nation.


         priorities, access to va care, benefits, and services


    The 2013 budget request builds momentum in our three 
priorities, and these are priorities I have discussed with this 
subcommittee over the past testimonies: increasing access to VA 
care, benefits, and services; eliminating this thing called the 
backlog in claims; and ending veterans' homelessness.
    For access, this 2013 budget request balances capital 
requirements with operating needs. It allows VA to continue 
improving access by opening new or improved facilities closer 
to where veterans live, and by providing telehealth and 
telemedicine linkages between those facilities, including in 
veterans' homes; also by fundamentally transforming veterans' 
access to benefits through a new electronic tool called the 
Veterans Relationship Management system, VRM; and finally by 
better serving our rural and women veterans. Of the 1 million 
service members who are expected to leave the military over the 
next 5 years, we expect at least 600,000 of them will likely 
seek VA care, benefits and services.
    On the backlog, from what we can see today, fiscal year 
2013 is likely to be the first year in which our claims 
production exceeds the number of claims we have incoming. The 
paperless initiative we have been developing over the past 2 
years is critical to increasing the quality of our claims 
decisions and the speed with which we are able to process them. 
Processing speed and quality will eliminate the backlog. 
Congressional support of our IT priorities in the past has been 
essential to delivering these benefits, health care, and 
memorial services to veterans. We approach the tipping point in 
ending this backlog we have been working on now for 3 years. 
Stability in IT funding is key to eliminating that claims 
backlog.
    And finally on homelessness. From January 2010 to January 
2011 alone, the estimated number of homeless veterans declined 
by 12 percent. We have momentum here. More is needed to end 
veterans' homelessness in 2015. We are building a dynamic 
Homeless Veterans Registry, which contains over 400,000 names 
of current and formerly homeless veterans. In the years ahead 
this registry will allow us to see, track, understand, but, 
more importantly, to prevent veterans' homelessness in the 
future. This budget supports that plan.
    We are committed to the responsible use of the resources 
this committee and the Congress provides, and again, Mr. 
Chairman, thank you for this opportunity to appear before the 
subcommittee today, and we anticipate your questions.
    Mr. Culberson. Mr. Secretary, thank you very much.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Culberson. Members, there is a vote that has been 
called. There are just a few minutes left in it. If I could ask 
your indulgence, Mr. Secretary and Under Secretaries, we will 
return as soon as we get a chance to vote at the end of this 
series. The committee will be in recess very briefly during 
this vote series, and we will be back. Thank you.
    [Recess.]
    Mr. Culberson. The subcommittee will come to order. Mr. 
Secretary, thank you for your testimony, for your patience. We 
are finished with the voting, and I want to move into 
questions, and, of course, recognize my good friend Mr. Bishop 
after a couple of preliminary inquiries.

                  INTEGRATED ELECTRONIC HEALTH RECORDS

    I wanted to ask about something that Senator Kirk, my good 
friend Mark Kirk, is as committed to as I am, and I know you 
have been working on an Integrated Electronic Health Records 
system for the VA. We have in Congress been prodding both the 
VA and the DOD for years to create a common record that would 
follow an Active service member to the VA system. Could you 
talk to us a little bit about how long it will take to develop 
an operable unified system, and what you anticipate the annual 
and ballpark total VA development costs would be?
    Secretary Shinseki. Thank you for that question, Mr. 
Chairman. Let me just begin, and I will call on Secretary 
Baker, our chief information officer, to provide some details 
here.
    This is one of a handful of things that we have worked 
pretty hard for the last 3 years, and I will tell you on the 
Integrated Electronic Health Record, the intent here was to 
build a single common joint electronic health record that would 
serve the military as well as VA, and so we have been doing 
that. We have agreement between two Secretaries, first with 
Secretary Bob Gates, now with Secretary Panetta, and we are 
going to do exactly that. It will be open architecture, 
nonproprietary design, and we are now in the process of putting 
details to what those descriptions mean.
    Let me call on Secretary Baker to provide a little more 
detail.
    Mr. Baker. Thank you, Secretary Shinseki.
    Mr. Culberson. Secretary Baker, I think you are on my 
calendar to come talk to me sometime in the weeks ahead.
    Mr. Baker. I believe next week.
    Mr. Culberson. Next week. Good. Thank you.
    Mr. Baker. Thank you.
    So to specifically answer your questions, initial 
installations of the IEHR in two facilities will be in 2014. 
The two Secretaries have set us on that task, and we are off 
executing to that at this point. Long term----
    Mr. Culberson. Which two facilities, if I may?
    Mr. Baker. Notionally right now in draft we are looking at 
Hampton Roads and San Antonio; have not brought that through 
the Secretaries for a firm decision yet, but those are the sort 
of facilities that we are looking at.
    We expect full implementation to take somewhere between 4 
and 6 years. These are large systems with, for example, 127 
different medical applications like pharmacy and laboratory and 
a variety of other things that really do automation in the 
hospital.
    Our request for 2013 from VA is $169 million. We expect to 
run at about that rate or maybe a little bit above for a number 
of years as we implement this. I think the best estimate we 
have had for the development piece of this is probably about $4 
billion split equally between DOD and VA for just the 
development side of the IEHR implementation.
    Mr. Culberson. So you have been able to get the Department 
of Defense's cooperation in this? When you talk about getting 
this 4 to 6 years to implement, you expect within about 4 to 6 
years to have essentially a fully integrated electronic medical 
records system that will follow an Active Duty service member 
from their time in the Army to into the VA system?
    Mr. Baker. That is correct. And probably most importantly, 
we have mapped out how we do that with the data. You know, 
these systems have huge databases, and they don't necessarily 
look the same, but we figured out how we are going to make that 
data for a clinician look the same so that a clinician will not 
know whether they are dealing with someone who was seen in a VA 
Hospital or a DOD hospital. They see a medical record that 
makes sense to them.

                       MILESTONES AND BENCHMARKS

    Mr. Culberson. Well, it is extraordinarily important. What 
kind of milestones, benchmarks are you going to use to ensure 
that it is meeting the standards that you expect, and that you 
are on track and on target?
    Mr. Baker. Thank you. We are driving to use the same 6-
month milestones that we are using at the VA right now. We have 
had tremendous success in changing the way that we develop to 
those 6-month milestones. In 2011, we met 89 percent of the 
development milestones we set out. We are looking to do the 
same thing with IEHR.
    As I said to a question like this from the Senate last 
week, the DOD still has a legal requirement to meet DOD 5000, 
which is their development approach. We are working towards 
being able to do that agile development of 6 months and still 
meet their legal requirements under 5000.

                          PAPERLESS PROCESSING

    Mr. Culberson. Thank you.
    I know your office is also supervising or overseeing the 
switching over to a paperless disability claims processing. 
What is causing the problems with paperless processing? You 
have had more than 40 pilots and tested the paperless 
processing system in just 2 regional offices, but you say that 
you are going to roll out paperless processing in 16 regional 
offices by September and 40 by the end of 2013, but I 
understand that you testified to the authorizers you have only 
run 1,000 claims so far through the system.
    Secretary Shinseki. Mr. Chairman, let me shift that 
question over to Secretary Hickey, who does the benefits claims 
processing, and she is really running the pilots right now 
based on the technology that Secretary Baker provides.

                           CHALLENGE TRAINING

    Ms. Hickey. Thank you, Chairman Culberson.
    First let me lay some basic foundations. There are 40-plus 
initiatives that we have developed, but they are not all VBMS 
initiatives. There are 40-plus transformation initiatives 
across three major categories: People, how we are organized and 
trained to do this work. For example, we have already initiated 
one of those initiatives called Challenge Training, which is 
showing us great results. We have literally seen a 4 percent 
increase in our quality in the last 4 months associated with 
doing this new training model.
    Mr. Culberson. How do you measure that?
    Ms. Hickey. We measure it by testing, by actual measurement 
with our STAR Accuracy Team that does the work out of Tennessee 
STAR has been the model for measuring our accuracy over time. 
So all very standard, very concrete, pulling cases, examining 
cases, examining for errors, a very defined process. That is 
the one category.

                    PROCESS CATEGORY OF INITIATIVES

    The second category is a Process category of initiatives, 
and in those I will tell you a great one is one that is just 
releasing today, disability benefit questionnaires. The 
disability benefit questionnaires--there are now 81 of them 
that were released this week. This will allow us to get to both 
a 39-day savings in the amount of time it takes to do an 
individual claim, and it will also allow us to achieve a 7 
percent increase in quality, all while being great for our 
veterans, because they can now use their private physicians to 
fill out these disability benefit questionnaires. That is one 
of our 40-plus initiatives in the Process category.
    The Technology category is when you get to VBMS. I will 
tell you, for VBMS, we have had two pilots. Those two pilots 
have been in Providence and in Salt Lake City. We have been 
able to show with those 2 pilots the ability to do claims in 
130 days, and that is not even the full complement of what will 
arrive on the 15th of July when we get the full complement of 
VBMS. That is when we will put the 16 regional offices, this 
year by the end of the fiscal year, on the system. Then next 
year 40 more go on the system.
    Mr. Culberson. With such a small sample of 1,000 claims, 
how do you know? You have got a million claims a year. Help us 
understand how with such a small sample you can have confidence 
that you will be able to manage a nationwide ramp-up.

                           PAPERLESS PROCESS

    Ms. Hickey. Thank you, Chairman Culberson, for your 
question.
    This is not the first time we have moved from a major 
paper-bound process into a paperless process. Our first success 
was years ago with loan guarantee, when we brought in the 
paperless VALERI model. Very recently with the Post-9/11 GI 
Bill we brought in the IT paperless system for processing 
claims for our education claims, and we clearly see 4 million 
of those come through the door now every single year. We have 
some experience moving from paper bound to paperless at a size 
and scale that will easily accommodate this issue.
    Mr. Culberson. Those are obviously much less complex 
systems.

                           BUDGET SUBMISSION

    I want to make sure to pass the witness to my friend Mr. 
Bishop, but I really want, particularly while we have Mr. 
Rogers and Mr. Dicks here and the other members--I am going to 
have to admit I am astonished to discover in your budget 
submission this year that the VA estimates that your health 
care costs in the current year are essentially $3 billion less 
than projected, which, now that I look at that, is we 
appropriated $3 billion more than you needed for the current 
year, and that for the advance appropriations that we 
appropriated $2.1 billion more than you needed because your 
costs were $2.1 billion less than projected. That is 
astonishing, particularly in this environment when money is so 
precious and so tight, and Chairman Rogers and Mr. Dicks, all 
of us on this committee, the entire Congress is struggling with 
massive deficits. That is breathtaking to discover that you 
have got $2.9 billion more than you needed. Obviously you have 
so many noble, good causes that you would like to spend the 
money on.
    I mean, clearly this committee is going to need to have 
some procedures in place, because you did not even notify us of 
it until the budget submission. We have got to make sure we 
have got procedures in place where you notify the 
Appropriations Committee that you seek the approval of the 
committee for any reprogramming.

                        ADJUSTING FUNDING LEVELS

    But could you please tell the subcommittee, tell Chairman 
Rogers, Mr. Dicks, Mr. Sanford Bishop, when did this 
overestimate become apparent, and why would you not inform the 
committee last December when we would have been able to have 
considered adjusting the 2013 funding level?
    Secretary Shinseki. Mr. Chairman, what you are referring to 
here is what we call a ``model drop''. We do the best we can to 
estimate what our requirements are going to be, especially 
looking out two budget cycles, and then when we run the last 
model, a last time, to ensure that our numbers are accurate, I 
would say year to year there are small adjustments, and they 
are absorbed in the process.
    What you are referring to is a $2 billion change in the 
model. The last time we ran it was before submission. For our 
purposes, I will call on Dr. Petzel, because it is the Milliman 
model that we use to estimate healthcare requirements, and we 
look at it to provide these estimates for us. I will ask him to 
explain how this was accommodated. It would be with this budget 
submission that we present changes that occurred and how we 
propose the funds to be reallocated in budget.
    Mr. Culberson. Well, certainly 2 years out I could see 
there might be some difficulty and a little fuzziness, but $2.9 
billion of that is for the current year. You now indicate costs 
in the current year of $2.9 billion less than projected, and 
2013, which we have already, of course, advance funded, is $2.1 
billion less. But, the lack of any advance notice and then 
absolutely no consultation, it is a vast amount of money and 
with the immense problems we face as a Nation with the deficit.
    Secretary Shinseki. The money was used in ways that we have 
in the past had discussions with Congress where we have 
prioritized, and those issues would have been for Caregivers 
Services.
    Mr. Culberson. Well, I mean, again, I do not want to 
quarrel with you----
    Secretary Shinseki. Let me just call on Dr. Petzel to talk 
about where we have allocated those monies.
    Mr. Culberson. All right, sir, sure.
    Dr. Petzel. Thank you, Mr. Secretary and Mr. Chairman.
    Just a brief word about why this occurred. The model is run 
annually, as the Secretary alluded, and changes in this case in 
the utilization rates and in the intensity of care were put 
into the model. This is coming from the Milliman Corporation 
who made those judgments for the unemployment rate, which 
changed; inflation; an adjustment that was made in terms of 
where long-term care was counted in or out of the model; and 
then finally the requirements for CHAMPVA. That is the program 
where we pay nonveterans who are spouses of 100 percent 
service-connected individuals who have died, and those 
requirements also changed.

                    REINVESTED VETERAN-CARE PROGRAMS

    What we did with that money is that we reinvested it in 
what I think all of us would agree are important veteran-care 
programs where we have requirements: Caregivers, a piece of 
legislation; improving mental health; expanding access in a 
variety of different ways; the homelessness program; 
activations, that is the activation of new facilities or new 
construction, the new models of care; and then finally, as we 
were talking about before, the IDES system; some quality of 
care issues; and finally health----
    Mr. Culberson. I know none of us have any quarrel with some 
of the important uses that you are putting these excess funds, 
as you call them, to use. The scale is, I think, unprecedented. 
I understand from our staff that this is far beyond anything 
you have ever done before. What has been about the biggest re-
estimate?
    Secretary Shinseki. I would just say, Mr. Chairman, this is 
not something that happens regularly. In fact, I don't know 
over the last 10 years when we have had a significant shift in 
the model. The model could go up as well, but in this case it 
went down.
    Mr. Dicks. Mr. Chairman.
    Mr. Culberson. Sure, please.
    Mr. Dicks. Just an observation. I would rather have them be 
$3 billion long than $3 billion short.
    Mr. Culberson. Certainly that is true.
    Mr. Dicks. I think we can do a good job of managing how 
they deal with the rest of the money.
    Mr. Culberson. It is a big number.
    Mr. Dicks. A big number.
    Mr. Culberson. A big number.
    Mr. Farr. Even for defense overruns.

                     NOTIFICATION TO THE COMMITTEE

    Mr. Culberson. It is a real source of concern in the 
absence of notice, and clearly the committee needs to be 
notified of these things. We need to be in the loop on the 
reprogramming, and it is a concern also because it looks like 
from the way you have set up your strategic planning major 
initiatives, you have got seven of them funded in 2013, but you 
zero out six of them in 2014, and you are only funding $634 
million for homelessness. So it concerns me. It looks like you 
may be setting us up for a repeat. I hope not.
    Secretary Shinseki. To my knowledge, this is the first time 
this has happened with the model. You know, we will run it, Mr. 
Chairman, and we will certainly let you know, but it is not a 
common occurrence.
    Mr. Culberson. Mr. Bishop.
    Mr. Bishop. Thank you very much, Mr. Chairman.
    The military and the nonprofit Fisher House Foundation 
provides some relief for Active Duty and retiree families with 
a loved one who is seriously ill or critically injured, 
providing temporary lodging and support near military medical 
centers. The privately funded lodgings are known as Fisher 
Houses after Zachary and Elizabeth Fisher, which is a civilian 
couple who wanted to help service members.

                        NUMBER OF FISHER HOUSES

    Secretary Shinseki, can you tell the committee how many 
Fisher Houses are currently supported by VA, and whether or not 
you expect that number to grow? And can you explain to the 
subcommittee how the VA Fisher House partnership works, how 
much funding was included in fiscal year 2012 to support the 
operation and maintenance of the houses, and how much are 
projected in the fiscal year 2013 request, and whether or not 
you see there are any process improvements that need to be made 
in building and managing the Fisher House facilities?
    Secretary Shinseki. Thank you, Congressman Bishop.
    The arrangement we have with Fisher House, we have done 21 
of them now, and we provide the property. It is a joint 
agreement on the priority for establishing a Fisher House, so 
there is agreement between VA and the Fisher House Foundation. 
We are discussing going to 36. They fund the building of the 
facility. We provide the hook-ups, and then we provide the 
operation, staff to operate it.

                    ADDITIONAL MEDICAL CARE FUNDING

    Mr. Bishop. Thank you.
    Now, you are requesting an additional $165 million for 
medical care in fiscal year 2013. Is this funding similar to 
the contingency funding that was requested last year? And, if 
not, can you explain the reason for the additional funding? And 
also your request includes a carryover of $500 million. Can you 
tell the subcommittee what the reason is for the carryover and 
how it was built into the fiscal year 2013 budget?
    Secretary Shinseki. Certainly. The $165 million you are 
referring to would also go towards some of those priorities 
that Secretary Petzel mentioned earlier: caregivers, opening 
new facilities on time, and then add more resources to our 
effort to end homelessness, stay on track with that.
    Mr. Bishop. That was the $500 million?
    Secretary Shinseki. That was the $165 million figure you 
were referring to.

                               CARRYOVER

    Mr. Bishop. You are requesting a carryover for $500 
million. What is the reason for the carryover, and how is it 
built into the 2013 budget?
    Secretary Shinseki. Okay. I am a little confused here. Mr. 
Bishop, last year our plan was to save, in savings, about $1.1 
billion, and what we promised Congress we would do was to take 
the first $600 million of that, I think the chairman will 
remember this discussion, and invest it in the 2012 budget. The 
second piece of that $1.1 billion was set aside to be 
reinvested in the 2013 budget, and that is--you could call it 
carryover. I would prefer to call it efficiencies, because what 
we have intended is that the top line remains the same, but 
with our savings we are buying down the amount of new money 
required. So we are reinvesting that savings into the base, and 
that $500 million is really part of the budget for those 
requirements.
    Mr. Bishop. Mr. Chairman, I think my time is about up.
    Mr. Culberson. Thank you, Mr. Bishop.
    I am pleased to recognize the chairman of the full 
committee Mr. Rogers of Kentucky.
    Mr. Rogers. Thank you, Mr. Chairman.

                  PRESCRIPTION DRUG MONITORING PROGRAM

    Mr. Secretary, you and I discussed yesterday as we met 
briefly the prescription drug monitoring program that I 
mentioned in my opening remarks. This is not a small problem, 
as you know. CDC says it is an epidemic. In my State of 
Kentucky, we are having more people die from prescription drug 
overdose than car wrecks, and I dare say that is comparable to 
any other State. So it is a real problem, and I think it is 
especially so with veterans, many of whom have severe injuries 
that require pain medication, and they innocently get involved, 
perhaps, in overdoses and doctor shopping for more medicine, as 
it happens in the civilian world.
    After the VA expressed concern last year whether or not you 
had the authority to participate in State-run PDMPs, in the 
appropriations bill for the current year we included language 
that authorized you to do so. This enabled--as you know, those 
PDMPs to maintain the ongoing records of who has received a 
prescription, at what pharmacy, and by what doctor, and was it 
filled or not and so on, so as to try to prevent doctor 
shopping and causing an untoward problem.
    With the authorizing language now written into the law, is 
there a further problem with participating with the State 
PDMPs, and if not, when could we expect to know something about 
how you are proceeding?

                     OVERWRITING PRESCRIPTION DRUGS

    Secretary Shinseki. Thank you, Mr. Chairman.
    This is something we have been working on internally at the 
VA. For 3 years now we have looked much as you describe, at 
ourselves to see whether there is any evidence where there is 
an overwriting of prescriptions and see what that suggests to 
us, are there facilities that put out more prescriptions for 
these kinds of drugs than others? They give us an idea what are 
unusual behaviors.
    We have been limited to doing that internally. I think, as 
the chairman knows, we were prohibited prior to your 
legislation from going beyond that, but your leadership has 
been very helpful. We now can pursue this, as you describe, 
with the States. We are required to write a regulation. Since 
our discussion I have asked whether or not I am required to 
write a regulation for this, and the answer I am given back is 
that I have to go through a regulation. So that is a longer 
process than I would like, but I will assure the chairman we 
are going to work that as hard and as fast as we can and try to 
see how much time we can save to get a good regulation out 
there. But it is a process that requires us to write it, put it 
out there for public comment, and take all the comments in. We 
have to work each of those comments out, and various other 
players have to review it.
    Mr. Rogers. I would hope we could do it as quickly as time 
allows, because we have got people dying every day.
    Secretary Shinseki. I understand.
    Mr. Rogers. Through no fault of their own.
    I have been very active on this back in my home district 
and home State; in fact, I chair the House Prescription Drug 
Monitoring Caucus here in the House. And there are the pill 
mills, the so-called pain clinics in many parts of the country 
are nothing but drive-through, immediate prescriptions by the 
bucketful that are then brought back and sold on the market. It 
is a horrendous problem, and I don't want to see our veterans 
left out of a possible--not a cure, but a brake, on overdosing. 
So I would hope that you would move Godspeed with that.
    Secretary Shinseki. Chairman, we are in total agreement 
with you. We will do whatever we can to move the regulation.

                               DRUG ABUSE

    Mr. Rogers. Are there any other steps being taken by the VA 
to tackle that problem, drug abuse?
    Dr. Petzel. Thank you, Mr. Secretary.
    Mr. Chairman, absolutely. Just a couple of things about the 
legislation. First, we are hoping that--we have been working 
with ONDCP to do this--that in the interim we can find ways to 
work with the States. It is unfortunate, but each State has a 
different kind of reporting requirement, et cetera. We are in 
the process of setting that up right now so that as the 
regulation is being written and processed, we are doing the 
background work so that when that regulation is finished, we 
will be able to hit the ground running, and we will not lose 
any time.
    Mr. Rogers. One of the problems we have is that there are 
48 States that now have a version of this in their State, and 
as you say, they are not consistent. They have different 
regulations and standards and the like. But there are two 
places that we are turning to now to help integrate all of 
those systems into one so they can share data across State 
lines, which is necessary, one of which is in the Department of 
Justice. And another is being put together by the pharmacy 
association. They would be two good places if you have not 
already checked with them to see if that might be a place where 
you would enter into the system on a wholesale basis.
    Dr. Petzel. I will go back and see, and if we have not made 
those connections, we will.
    Let me just briefly tell you what we are doing internally 
in the meantime, and this has been going on for a considerable 
period of time. We have two levels of review of the use of 
prescription narcotics. One is done nationally, where we look 
both at providers and individual patients, identifying 
providers who frequently do this, and identifying patients who 
may be using these drugs in excess. That information then is 
transmitted down to the individual medical center, and each one 
of those cases, be it a provider or a patient, is reviewed to 
be sure that we are not missing a particular problem.
    And the other thing is that we have a national pain 
management program so that we have national standards for the 
use of narcotics in the control of pain and algorithms, if you 
will, that we use to be sure that we are using every other 
modality that we possibly can to try and control that pain 
before we start using narcotics.
    I think we do a good job internally, but it is very 
important that we be allowed to see the State data and that the 
State be allowed to see our data. We are the largest integrated 
healthcare delivery system in the country, and we should be a 
part of this program.
    Mr. Rogers. Thank you. I agree with that entirely.
    Briefly, Mr. Chairman, let me ask a second question.

                              PROJECT ARCH

    Mr. Secretary, you describe access as one of your budget 
priorities, and rightly so, and certainly for access for rural-
situated veterans who live a long distance from the nearest VA 
facility, that is certainly a priority in my State. Last year 
you began a pilot program called Project ARCH, which stands for 
``access received closer to home,'' at five rural sites in 
Maine, Virginia, Kansas, Montana, and Arizona. The program uses 
an outside health care insurance company to organize contract 
care with private providers for those rural veterans. Can you 
briefly describe what is working and whether or not you are 
satisfied with the quality of care that those sites are 
providing?
    Secretary Shinseki. Let me call on Dr. Petzel to provide 
those insights.
    Dr. Petzel. Thank you, Mr. Secretary.
    Mr. Chairman, Project ARCH is one of two pilots that we are 
in the process of evaluating and using to evaluate how we might 
be using the fee-basis care, the non-VA care program, to 
provide better access in rural America. In this case in four of 
the five pilot sites, the provider is Humana VA that has 
provider networks across the country, and the purpose of the 
pilot is to see how effective, both in terms of quality and 
cost, it is to use this program in a systematic way for a 
larger number of patients. There are quality monitors in place 
to look at the quality indicators for those patients, and we 
are, of course, keeping track of the cost and the value that is 
being provided by that care. This will help inform decisions 
that we will make in the future about how and if we are going 
to more extensively use the non-VA care or fee-basis program in 
the future.
    Mr. Rogers. So what do you think so far?
    Dr. Petzel. I think that unquestionably the veterans that 
have used ARCH have been happy with it, and that it has 
provided better access for them. We have a lot of other ways we 
can provide better access, and the question that has not yet 
been evaluated. Is this a cost-effective way to provide better 
access? That is hopefully a major thing that we are going to 
learn from the ARCH pilots.
    Mr. Rogers. How far along are you on it?
    Dr. Petzel. The ARCH pilots are a year old, and it is a 5-
year pilot, if I remember correctly.
    Mr. Rogers. Well, a year is a pretty good time to tell us 
what do you think so far?
    Dr. Petzel. I have not got an opinion right now of how 
cost-effective this has been, but we certainly can go back and 
look at these things and communicate with the committee in an 
ongoing way about how this project is going and what we feel is 
the value of it.
    Mr. Rogers. I would really appreciate it if you could do 
just that.
    Dr. Petzel. We will.
    Mr. Rogers. And to give the committee a report on how it is 
going and how it is working, the quality of care, whether or 
not it looks like it is going to be a model that you will 
duplicate nationwide and the like.
    Thank you, Mr. Secretary.
    Secretary Shinseki. Yes, sir.
    Mr. Rogers. Thank you, Mr. Chairman.
    Mr. Culberson. Thank you, Chairman Rogers.
    Mr. Dicks.

                            HEALTHCARE COSTS

    Mr. Dicks. Going back to this question on the money, is 
there any indication that health care costs--they have been 
going up rather dramatically over the last several years, and 
Congress has actually added money to deal with veterans health 
care. Is there any indication that this upward trend is, though 
maybe not as great as you thought when you ran the model, but 
is it--is there any indication that we are having any luck in 
constraining the growth in healthcare costs, which I think 
nationally is around 6 or 7 percent?
    Secretary Shinseki. Let me call on Dr. Petzel to speak 
about the healthcare costs in the model.
    Dr. Petzel. Thank you, Mr. Secretary and Congressman. Thank 
you.
    One of the marching orders that I was given by the 
Secretary when I took this job was to bend the knee in the 
cost-care curve, to start at least bringing that down; not 
necessarily dropping it, but at least leveling it off. And we 
have----
    Mr. Dicks. Which would be a huge thing if we could do it.
    Dr. Petzel [continuing]. Put a substantial amount of energy 
and effort into that. And you are absolutely right. If we can 
demonstrate, again, to the rest of the country that this system 
is able to do that, it might be a model that other people could 
follow.

                             REDUCING COSTS

    Let me just tell you some of the things that we are trying 
to do. We are reducing our costs in fee-basis care, we are 
making sure that we are spending that money as effectively as 
we can, we are reducing our acquisition costs, we have done a 
very good job of reducing the costs in dialysis, and we are 
looking at reducing our indirect costs. We have given every 
medical center a target to reduce their indirect costs. We are 
reducing admissions and readmissions. They are very expensive. 
When you readmit a patient to a hospital within 30 days after 
they have been discharged, it is a very expensive thing. We are 
reducing what we call ambulatory-sensitive--admissions for 
ambulatory-sensitive conditions, conditions that should be 
treated in the ambulatory care setting and not result in 
hospitalizations. We have dropped our length of stay in the 
hospital over the last few years by half a day. That is huge 
when you look at the cost of a day of hospitalization. We are 
reducing emergency room visits, again giving patients 
instructions about how to care for themselves so they do not 
have to walk into an emergency room. These are the kinds of 
things that I think we need to do and everybody needs to use in 
order to reduce the cost.
    Mr. Dicks. Has it shown any result? Have you got anything 
you can tell us? Is it reducing the cost of health care?
    Dr. Petzel. Yes, in a simple way, yes. Is it easy to 
demonstrate? No. We look at the cost per individual patient, 
take our total expenditures and the number of patients that we 
treat, and you can see a leveling of that number.
    Mr. Dicks. Okay.
    Secretary Shinseki. Congressman.
    Mr. Dicks. Yes, go ahead.

                             BUDGET SAVINGS

    Secretary Shinseki. Let me just offer that in fiscal year 
2011, the Veterans Health Administration saved $746 million. I 
cannot tell you where each piece came from, but the whole sum 
is out of their budget. They created a savings of $746 million, 
and that is part of that $1.1 billion savings I talked about 
that we took $600 million and invested it into the fiscal year 
2012 budget, and the second $500 million, invested it in the 
2013 budget. For the reasons that Dr. Petzel described, we are 
looking at a target to save $1.2 billion this year out of 
health care, and we have given them a target of $1.3 billion in 
fiscal year 2013, and all of this to enforce on ourselves the 
disciplines and behaviors that at the end of the year accrue 
and the kinds of savings we are looking for.

                              VASH PROGRAM

    Mr. Dicks. Secretary Shinseki, you and I have talked about 
the VASH program. This is a joint HUD-VA program aimed at the 
homeless, and this program, I think, has been very successful 
in driving down the number of homeless veterans that are out 
there. And they get a voucher that goes with the housing 
authority. It is like Section 8. They are able to get into a 
room, an apartment, and stabilize their situation, and then 
they go and get their treatment for alcohol or drug abuse, 
whatever got them out on the street in the first place. And we 
are coming down, the numbers are coming down, and this is not a 
real expensive program. Can you give us your perspective on 
this?
    Secretary Shinseki. I am going to call on Dr. Petzel for 
the detail, because I have pinned the rose for the homeless 
issue on VHA, on the Veterans Health Administration. First of 
all, they have the structure to do this; they have hospitals, 
they have outpatient clinics, they are into the communities in 
ways that none of the rest of VA is, and they have a good 
organization for this. HUD-VASH is the most versatile housing 
tool we have in the inventory. We have several options, but 
this is one where we can care for women veterans, veterans with 
families, children. It gives us the safest and best option for 
getting them stable, independently living, and then going on 
with their lives.
    Dr. Petzel.
    Dr. Petzel. Thank you, Mr. Secretary.
    Mr. Dicks. Why don't you explain how it works. Some of the 
Members may not be as aware of this program.
    Dr. Petzel. Great. Thanks, Congressman Dicks, I will do 
that.

                         HOW VASH PROGRAM WORKS

    First of all, just a little background. We have, as of 
November, 37,000 HUD vouchers, with another 10,000 in fiscal 
year 2012, and we are expecting, because HUD has asked for 
them, another 10,000 in fiscal year 2013. It is the cornerstone 
of providing for shelter, one of the four major things in 
reducing homelessness--jobs, shelter, education, and health 
care--and HUD-VASH is the program.
    How this works is that HUD will allot 10,000 vouchers this 
coming year to VA. They will, in coordination with us, decide 
where those are going to be or where they will be distributed. 
So 500 may go to New York City, to a variety of places. They go 
to the housing authorities in those individual communities. We 
then identify through our outreach coordinators and case 
managers homeless people that need housing. We put them in 
contact with, and actually case manage them in getting in 
contact with, the local housing authority, and then we work 
with them through the process of with the voucher, once they 
qualify for the voucher, of finding suitable housing. That may 
be an apartment, that may be a house, it could be a variety of 
different things. The important thing is that the local 
authority has the vouchers, but they are designated for 
veterans. We have the outreach coordinators and the case 
managers who identify the cases and work them through the 
process.

                             LENGTH OF TIME

    Mr. Dicks. Mr. Farr wants me to ask how long does--can a 
veteran stay? Can they stay there for a period of time or----
    Dr. Petzel. The vouchers can last for a long time, 
absolutely. This is viewed as permanent housing. This is not a 
temporary housing. This is viewed as permanent housing.
    Mr. Dicks. Thank you, Mr. Chairman.
    Mr. Culberson. Thank you very, very much.
    A lot of times it has involved drug abuse or substance 
abuse of some kind.
    Mr. Dicks. Wait a minute, I did not ask Mr. Farr's question 
properly. How long does it take to get a voucher?
    Dr. Petzel. It can vary. We try to make this very quick. We 
have tremendous cooperation in these communities with the 
housing authorities.
    Mr. Dicks. Do we have backlogs of people waiting to get 
vouchers?
    Dr. Petzel. In some parts of the country, but not all over 
the country, and the backlog can be because we have not got 
enough vouchers in that community. No longer is it a backlog 
because we cannot manage to get somebody through. We have the 
number of caseworkers we need to take care of everybody that we 
can identify with a voucher, but there may not be enough 
vouchers in some parts of the country, I cannot deny that.
    Mr. Dicks. Thank you, Mr. Chairman.

                            SELF SUFFICIENT

    Mr. Culberson. Actually the way you asked the question the 
first time raised a question in my mind, because if the voucher 
is perpetual, what are you doing to help make sure the guy is 
no longer homeless; that you want to obviously get him in a 
situation where he is self-supporting, and teach him to fish, 
get him off substance abuse or alcohol or whatever. I am going 
to turn it over to Mr. Carter, but we obviously do not want it 
to be perpetual. Would we not want to get him a job and get 
him--I am sorry, Mr. Dicks.
    Mr. Dicks. That is right, exactly right.
    Mr. Culberson. Yeah, make him self-sufficient.
    Mr. Dicks. I am glad you made that point. We want that 
person to get a job, get back out there in the private sector. 
Then that voucher can be used for somebody else.
    Mr. Culberson. There you go. What are we doing to help make 
them self-reliant?
    Secretary Shinseki. We do have that opportunity, and there 
are a number who have moved on, and we have recycled the HUD-
VASH voucher. And so that is individual cases, but, yes, that 
opportunity is there to do it.
    Mr. Dicks. Go ahead.
    Mr. Culberson. Talk to us about what the VA does to make a 
veteran self-sufficient.
    Secretary Shinseki. We provide the healthcare aspects of 
this.

             HEALTH TREATMENT AND SUBSTANCE ABUSE TREATMENT

    Let me call on Dr. Petzel to explain what we do in mental 
health treatment and substance abuse treatment.
    Dr. Petzel. Thank you very much, Mr. Secretary.
    Mr. Chairman, the VA is in a wonderful position to make 
this work and to do it we have the four cornerstones of ending 
homelessness under our umbrella with the HUD-VASH vouchers. We 
have much in the way of temporary housing through our grant and 
per diem programs and our supportive services programs. We have 
jobs programs under General Hickey, and we have education 
programs under General Hickey, and probably one of the finest 
healthcare systems in the country. So if anybody can deal with 
all of these issues and bring somebody to the point where they 
can afford to have their own home, it is us. We have this 
wonderful opportunity, and I appreciate Congress' support in 
allowing us to be able to do this.
    Mr. Culberson. Those were great questions, Members. I am 
glad you bring it up.
    I want to pass this on to my good friend representing Fort 
Hood, Judge John Carter.
    Mr. Carter. Thank you, Mr. Chairman, and I want to thank 
all of you.
    I am going to start off with a little personal privilege if 
the chairman will allow me. My brother-in-law, Kurt Brown, is 
presently fighting a rare form of brain cancer at Sloan-
Kettering Cancer Center in New York City. It has caused him to 
have temporary blindness. He is a former Air Force pilot and 
Delta pilot.
    He called me Monday night in a panic because he had hit the 
doughnut hole, and he wanted to know how he could get VA to 
give him some assistance. Being a typical American warrior, 
retired, the next day he went out and got in a cab and went to 
the VA in New York City, which I find very courageous just for 
a blind man to go on his own to the VA, get out of his sick bed 
to see if they could help him, and he wanted me to relay to 
whoever I ran into--and fortunately I ran into the top people 
here--he couldn't be more pleased with the service they gave 
him. He said they were professional, they were compassionate. 
They helped him connect with his home doctor in Florida, his 
home VA doctor in Florida. They got him the recuperative 
medicine he has to take between one round of massive chemo to 
the next round of massive chemo, and saved him thousands of 
dollars.
    And he was so pleased, he called us and said, please tell 
anybody you see from the VA--and I am able to see the top 
people here--to tell you that he would argue with anybody that 
there is no better service, medical service, that he has 
received than the VA. So I wanted to give you that story 
because it is personal to my family, and I thank you for it.
    Now, I want to ask you about something--first, let me tell 
you I spent the morning talking with the Secretary of HUD about 
the HUD-VASH program. I think it is an awesome program. I am 
glad Mr. Dicks brought it up. I think it is a big solution to 
the homeless problem.
    Mr. Dicks. Will the gentleman yield?
    Mr. Carter. I certainly will.
    Mr. Dicks. Last year this was on the kill list, and 
Chairman Latham and Culberson here, they worked together with a 
little advice, and we kept that program going. That would have 
been a serious mistake. I appreciate your leadership.

                   DOWNGRADING WOMEN IN THE MILITARY

    Mr. Carter. I am happy about the whole thing.
    I want to ask you about something that I hope you have on 
your radar screen. I am certain you do. You are very efficient. 
One of the things that I think is going to be a different twist 
to what VA services are going to offer is as this next round of 
downgrading the military and the people who are going to be 
released, we are going to see more women seeking VA services 
than ever in the history, I would say, of our Nation, because, 
quite frankly, we have more women warriors right now than we 
have ever been accounted for in the past, many of them active 
combat veterans.
    I would like to know what kind of planning you are doing, 
what kind of programs you are looking at specific to women and 
their needs, because, quite honestly, this--I think this is 
going to be sort of a new factor in the VA at the size and the 
scope that we are going to see it within the next few years, 
because anyone who has a large post like I do, can testify that 
our women warriors are very abundant and doing an outstanding 
job in our military, and we want to make sure we have the 
programs specific to women that are necessary to care for their 
health care and their benefit needs as we go forward. So I 
would like to have your ideas of what kind of planning you are 
doing towards those things.
    Secretary Shinseki. Dr. Petzel.
    Dr. Petzel. Mr. Secretary, thank you.
    Congressman, VA was a male-dominated culture up until about 
15 years ago, and that is when we really began to make changes 
to try and provide the kind of care atmosphere that women 
needed, and I think we have made progress, but we have a ways 
to go yet.
    This coming year we are going to be spending $403 million 
on women-specific, gender-specific issues. That is in addition 
to the $3.2 billion that we spend on general health care for 
women. There are about 300,000 women that use us now, an 
increase of over 100,000 in just the last couple of years. As 
you know, now the military workforce is becoming more and more 
gender neutral, if you will, and we are seeing the same changes 
occurring in the people that come seeking care from us.
    Just a couple of other things of interest. The construction 
budget that we are asking for in 2013 has in it almost 60 
percent for privacy and women-related issues specifically, so 
that is 60 percent of $1.5 billion in construction money. In 
addition to that, we are going to be spending about $12 million 
on research around women's issues, which is substantially more 
than 5 years ago when we really were not paying attention to 
this as we should have.
    Then finally, in the Veterans Health Administration we set 
up a Health Equity Office that is intended to look at health 
disparities across our system, and these can be because of 
gender, because of race, because of cultural differences, et 
cetera. One of the areas that we are going to focus on is the 
disparities in performance measures particularly between men 
and women in our system.

                         SEXUAL ASSAULT ISSUES

    Mr. Carter. Well, I am glad to hear that. I have a lot of 
concerns in that area just because of my background, and one of 
the areas that we keep hearing, unfortunately hearing, bad 
rumors about is sexual assault issues in the military, and that 
is a combination of physical and mental health issue for the 
victims, and I would hope that you would also be preparing for 
having to deal with some of those things.
    I watched a panel last week on C-SPAN, and it certainly was 
an eye-opener for me as to some of the things that some of the 
women that are getting out of our military now are having to 
deal with, and that is a crime. And, of course, I used to put 
people in prison for that, I want to make sure these victims 
are going to have the benefits and the facilities necessary to 
take care of them.
    Secretary Shinseki. Congressman, I would just give you a 
very quick look at what we have tried to do here budgetwise to 
provide women-specific resources. If you look between 2012 and 
2013, in this budget, we increased women's resourcing by 17 
percent.
    Mr. Carter. Good.
    Secretary Shinseki. But if you look over time between 2009 
and 2013, we grew women's resourcing by 124 percent.
    Mr. Carter. Outstanding.
    Secretary Shinseki. If we include the 2014 advanced 
approps, that increase goes up to 158 percent.
    We share your concerns here, and we are trying to get out 
ahead and ensure that we have programs and facilities in place 
that will accommodate the growth in women veterans in the 
coming years.
    Mr. Carter. Well, I commend you for that, and I am not 
surprised. I think you have a great forward view at the VA, and 
I am very proud of you, I have other questions, but I will wait 
for the next round.
    Mr. Culberson. Thank you. Thank you very much, Judge.
    I recognize my good friend from California, Mr. Farr.
    Mr. Farr. Thank you very much.
    I am pleased to see the judge supports getting rid of the 
doughnut hole. That was a great statement. It took the 
Department of Veterans Affairs to convert you.
    Thank you very much, Mr. Secretary. I find this is an 
incredible committee for you in your career being a joint--
being Chief of the Army, and then coming in and being Secretary 
of Veterans Affairs, because this is the only committee in 
Congress, in either House, that deals with the quality of life 
of Active Duty men and women in uniform and then takes care of 
the rest of their life in the Department of Veterans Affairs, 
so it really is one stop. And I think this committee, and I 
have been on it probably longer than anybody here, is very 
concerned about that continuity of care, and I think you are 
the one that can break those silos.
    I have been very interested in the way you have been 
adopting technology to reach out, and have been interested in 
your Web sites and things like that, and I applaud you for use 
of that technology. But I still think that you are making it 
unnecessarily complicated, because you are trying to solve that 
problem from Washington, top down, whereas every veteran in 
this country lives in some community, some more sophisticated 
than others, urban areas, the New York example which was just 
given, to really rural areas. And in the Web sites that you 
have created, it is all different, there is separate sites.

                            ONE-STOP ACCESS

    I am wondering if you could look into perhaps consolidating 
all those into one stop and perhaps log on with a log-in 
password that could be used by the veterans to access all their 
veterans benefits, their medical appointments, their services 
and so on.
    I would like to recommend, particularly in your discussion 
of the program ARCH, that there is--I am a former county 
supervisor, and there is a National Association of County 
Mental Health Directors, and they put together a program called 
Network of Care, which is based on every county in the United 
States having one-stop access to everything you need to know 
about health care, and particularly they have done it for 
veterans. And so it is built bottom up rather than top down, 
and it would really be an incredible addition. I am not sure 
that every county in the United States is yet done, but I know 
States like Maryland, California, Florida, Texas have done--are 
really involved in this, and I really--I think I have talked to 
you before about it, but I do not know whether you have had a 
chance to look at it. I would suggest you seriously look at 
that program as a complement to or as a model even better than 
what you are trying to do in your pilot programs with the four 
or five pilots that you are doing with ARCH.
    The reason I am concerned is because my office, and I think 
every office, has a person in their district office that is 
just assigned to doing veterans military issues, and this staff 
member I have, this is all he does all day long. Of course, we 
also deal with other Active Duty issues and appointments to the 
academies and so on, but the length of time that it takes for a 
veteran to get cases reviewed is still just way too long. I 
think in the report it was anywhere between 18 to 24 months.
    Let me just tell you, a tragedy just happened last week in 
my community of Gilroy. A veteran comes home. His name is Abel 
Gutierrez. He has got a lot of problems. His mother and his 
family called the local Gilroy police department. They have 
been trying to get this veteran some help, and Palo Alto is 
right up the street. They cannot get it in time. He kills his 
mother. This happened last week. They have not yet found her 
body. Then he killed his 14-year-old sister--11-year-old 
sister, and then shot himself. PTSD. It is going to happen.

                           PROCESSING CLAIMS

    Then I have these other cases of people that are--I have 
got a whole list here of veterans who submitted their claims 
for compensation, one July 22, 2010, still has not heard a 
single thing, and it is dealing with post-traumatic stress 
disorder. You just wonder how they have dealt without any here. 
Another on October 1, 2010, claim for entitlement to 
compensation, and still has not heard anything about the claim, 
whether it has even been reviewed. The list goes on and on.
    I do not think we can wait 18 to 24 months for initial 
processing of a claim. Could you respond? Are you trying to 
move up that target time, or can we--should we in this 
committee staff you more? Do you need more staff? It seems to 
me that we hear over and over again we need to reduce this time 
lag. And remember, before it used to be the time lag of coming 
out of DOD, and then getting your entire paperwork and your 
medical records transferred to VA, and I know there is still 
some difficulties with that. The last time we chatted, you 
talked that you were going to meet with Secretary Panetta and 
see if you could remove some of those. Could you update us on 
where we are on these things and closing this time lag?
    Secretary Shinseki. Congressman, there are a couple things 
that you have touched on that go across the spectrum of things 
that we are doing. First of all, Secretary Panetta and I have 
agreed on this single electronic health record. That is huge 
because that is in part, the inability to transfer that 
information between the two departments, what adds to this lag 
in the processing. In order to create a fully developed claim, 
we have to document it, and right now it is all done on paper, 
and that is why the IT budget in the 2013 request is 
significant, and that is why we have increased it by 6.9 
percent.
    So you are right to be impatient. I am impatient. We have 
spent 2 years building an automation tool that we believe is 
going to turn the corner here on what has been a performance 
record where in 2009 the good folks in VBA put 900,000 claims 
decisions out the door and got a million in. In 2010, they put 
a million claims out the door, and they got 1.2 million in. 
They put a million out again last year, and they got 1.3 
million in.
    So this is a big numbers game. The idea that the backlog is 
the same backlog year to year is not quite accurate, but there 
are some of those cases that you talk about that linger because 
there is an appeals piece to the end of that processing cycle. 
It is our intent to allow us to dominate what has been this 
large number of volume in claims. I do not think there is any 
other way to do it. We have hired a manual workforce to take 
care of these claims as they have continued to grow, and, 
frankly, just more people will not solve this. We need this, an 
automation tool that we need to get after.

                          TRACKING INDIVIDUALS

    In the case of Gutierrez, I am going to ask Dr. Petzel to 
provide some insights, but it is tragic whenever anything like 
this happens. It is not something any of us can explain. But 
Sergeant Gutierrez was being seen in the State of Washington, 
and I would say--I will defer to Dr. Petzel here--it was sort 
of a spotty treatment. In other words, I cannot tell whether he 
missed appointments or we did not track with him, but it was 
not a continuous treatment process. When this incident 
happened, it happened in California, and another reason why we 
need to be able to track much better, much faster 
electronically so that we can anticipate or at least try to 
anticipate someone who has moved several States that needs our 
help.
    Mr. Farr. Absolutely. I mean, that is the reason for a 
national electronic record. I mean, he is in that record when 
he was being treated in Washington.
    Secretary Shinseki. I am not aware he tried to get into 
Palo Alto.
    Dr. Petzel. Just a couple of pieces of information. We 
offered him in-patient care on four occasions, and he turned us 
down. We offered him ongoing chemical dependency treatment 
both, I know in Washington and I believe in Palo Alto, and he 
refused or did not come. There was a lot done to try and get 
this gentleman into care, and we were not able to do it. We 
felt badly that we were not able to do it.
    Mr. Farr. Did California or Palo Alto know that he was in 
the region?
    Dr. Petzel. I believe so, yes.
    Mr. Farr. What I heard was there was not that 
communication.
    Dr. Petzel. I will get back to your office about that, but 
I believe they did.
    Mr. Farr. The Gilroy police were trying to get him in to 
get him some help. It is tragic, and I know that----
    Secretary Shinseki. Congressman, regardless, we all failed 
Sergeant Gutierrez. We have just got to come up with a better 
solution here.
    Mr. Farr. I appreciate all the work you have done. We have 
a former Fort Ord, and I was just thinking as Mr. Dicks was 
talking that if we do have another BRAC round, in my experience 
I have been through many of them, VA never has much of a role 
in being able to--we have a McKinney Act which allows the 
homeless population to go in and have first claim on some 
property before anybody else after the defense partners, 
obviously, have first crack, but I think it might be wise in 
this next BRAC round, because we, for example, have housing at 
Fort Ord that does not meet code. We have a nonprofit veterans 
group there, the Vietnam Veterans Association, which cannot 
raise enough money to do the whole--bring all these houses up 
to code, but as they have done it on little voluntary effort, 
they are housing homeless vets, and they are housing the vets 
and families of vets from Iraq and Afghanistan right now, and 
they have many more houses they could put people into.
    You and I have talked about they are going to apply for a 
grant and all that, but it seems to me that maybe we ought to 
take a look at, if we go through BRAC again, of housing that 
might not stay in DOD and not necessarily your ownership, but 
allow this process for homeless vets to have a crack at it, 
because, you know, usually in those bases there is a lot of 
other things available there, and one of them being the idea if 
we have a clinic that has outgrown its size, and you know this 
very well, but--and you are going to make a decision on which 
of the communities inside the former Fort Ord are going to be 
chosen, which one will be chosen, and I hope you will make that 
very soon, because I think we are ready to move ahead on that 
project.
    And the last thing that I just delivered--just telling you, 
I just delivered to the gentleman sitting right behind you, the 
Under Secretary for Memorial Affairs, 146 letters from veterans 
who still feel very left out that they can't--this is the 
national cemetery, which, you know, this committee has heard me 
like a broken record on it, just so far away, that they don't 
feel--because of this policy in the Department, and the 
Secretary and I have talked about it, it is a policy, not a 
law, that sets up this, what is it, 173-mile radius; that if 
you are inside that radius, you have to be buried there, and 
that is--it is actually--as the crow flies it is 173, as a 
drive it is about 2 hours. So it is not accessible at all, and 
these veterans are all feeling that they would like to see if 
they can help us with our plan to try to get a cemetery in Fort 
Ord. So I delivered those letters, 146 of them, to Steve Muro.
    But I really appreciate the help you have given our 
community, and I think as this committee is concerned, as we 
try to break these silos, I do not know of anybody more 
qualified than yourself with the experience you bring from DOD 
to take on DOD and make sure that they do their fair share in 
setting it up. I mean, they are handing these people to you, 
and they are handing them to you unprepared for you to handle 
them, and I do not think that is fair. I think that the DOD has 
a much bigger responsibility here, and I want to do whatever I 
can in this committee to make sure that the quality of life of 
those that we honor every day for service is going to be a 
quality of life for them for the rest of their lives, and if we 
mess up their lives, we have a responsibility for helping them 
solve that problem.
    Secretary Shinseki. Mr. Chairman, may I very quickly 
respond?
    Mr. Culberson. Yes.

                       HOUSING FOR HOMELESS VETS

    Secretary Shinseki. The issue of housing, of excess housing 
available to use for homeless issues, we used to have a program 
called the Enhanced-Use-Lease, EUL. Our authority ran out on 31 
December. We have used that authority in years past in a number 
of ways, not the least of which has been to house homeless 
veterans on VA campuses where we either had vacant facilities 
or underutilized facilities. Through the EUL we have 
refurbished them, made family housing units out of them. Almost 
a perfect location because they are right on site where they 
can have access to the services provided by Dr. Petzel's folks 
in terms of mental health and substance abuse, those kinds of 
things that they may or they may not need. Not all of them need 
it. But it is something we would be interested in.
    Mr. Farr. Have you requested reauthorization?
    Secretary Shinseki. We have, and we will continue to seek 
your guidance and support here, but it would give us another 
tool and one we would control in terms of very quickly getting 
homeless, and, more importantly, those at risk of homelessness. 
We know a family is in trouble, and we can put them into this 
environment and get things going before they are on the street 
for any length of time.
    On the second issue, I think you were talking about the 
healthcare center that we have been working on for Monterey. I 
met with Secretary of the Army McHugh yesterday. We looked at 
all three sites. It is a joint agreement with us and that we 
should go as quickly as we can to the most available, least 
encumbered site, which ends up being the Marina site. And I 
hope the Congressman is okay with that, but we think it is more 
important for us to get this up quickly, and this one will 
allow us to do that.

                               CEMETERIES

    Regarding the issue of cemeteries, I hear you, Congressman, 
and I sympathize with your issue here. There are nine VA 
cemeteries in the State of California. Three of them run up and 
down the San Joaquin Valley, just on the other side of the 
range here from Monterey, and I appreciate the veterans in 
Monterey wanting to have something locally available to them. 
As you know, we created an opportunity with the State of 
California for a State veterans cemetery. It would be located 
wherever the State of California wanted to provide land in 
Monterey, and we would fund it, as we do other State 
cemeteries.
    Mr. Farr. There is, what, 11 States, including, I think, 
Texas and some big States, Florida, that do not have State 
cemeteries. Some States do not want to go into the veterans 
cemetery business. California wants to go into the soldier home 
business but not the burial business.
    Secretary Shinseki. Well, I have written the Governor of 
California and asked him to review this agreement we had. We 
were ready to fund it. We were ready to execute it. As you 
know, we fully fund it, and the only requirement is for the 
State to operate it and come up with the operating costs. There 
is a little piece that they are required to put up front, I 
think, like $300,000, as sort of an assurance that they are 
going to go forward with the project, and even that we 
reimburse once the contract is let. I am going to see why the 
Governor of California does not find the needs of the veterans 
of Monterey important, and, Congressman, I hope you do the 
same.
    Mr. Farr. I have been working for 20 years over three 
Governors, and if you can convince this one, more power to you.
    Secretary Shinseki. I have written to him, as I have said, 
personally, and we are dealing with his Secretary of Veterans 
Affairs.
    Mr. Culberson. Thank you.
    Let me recognize my good friend from Ohio, Mr. Austria.
    Mr. Austria. Thank you, Mr. Chairman, and thank you, Mr. 
Secretary and your staff, for the hard work, the commitment 
that you have put forward in helping our veterans with their 
needs, their benefits. We certainly appreciate your effort, and 
I would like to echo Mr. Farr's comments as far as I think you 
are doing an outstanding job, and we appreciate your hard work.

                           BACKLOG OF CLAIMS

    As I mentioned to you in our brief meeting, you know, in 
Ohio, I represent the largest number of veterans of any 
district in Ohio, so needless to say, that carries over to our 
office in providing service to our veterans. And I had an 
opportunity before this hearing today to talk to our staff 
about some of the concerns they had, the biggest challenges 
they are faced with, and I think Mr. Farr kind of hit on the 
number one issue they have was the backlog of claims.
    We have seen it in Ohio. They were telling me that--and I 
have got two caseworkers on this because it is such a big 
district, covering two areas over by the Columbus-Chillicothe 
VA centers, as well as the Dayton side with Dayton's veterans 
medical center there--go from 6 to 9 months to a year now. And 
some of the numbers they were sharing with me--and they have 
read this, I do not know if it is true--but the regional office 
that handles these claims in our area I believe is the 
Cleveland area, but we have seen--I guess it was reported the 
number of specialists there who handle this, rate specialists 
or claim specialists, whatever their title might be, is 250 
handling approximately 25,000 claims.
    And obviously concerned about the backlog of claims, but 
also--and you mentioned that, you know, you have gone--I mean, 
you acknowledge this in your testimony--a 48 percent increase 
in claims since 2008 and expecting another 4.2 percent this 
year, and with the million troops-plus over the next 5 years, 
that is just going to continue to increase.
    We continue to run into situations like Mr. Farr has 
described where there are situations where we cannot wait a 
year on these claims, and there is a deep concern on how we can 
expedite this and what you are doing. And you have mentioned 
the IT program as one of the solutions to this. I was wondering 
if you could talk a little bit more about that being the 
solution, if that is what you are mainly focused on, and what 
we are doing to expedite the claims more specifically.

                          ELECTRONIC SOLUTION

    Secretary Shinseki. I am going to call on Secretary Hickey 
here to provide insights into this electronic solution. Let me 
just say up front, I indicated we had a large number of claims 
decided, 900,000 in year 1, and then a million and a million, 
but it is the incoming claims that outpace that. And then I 
complicated things a little bit. I mean, first of all, we had a 
9/11 GI bill to implement. Again, no automation tool here, and 
the request of Congress was to implement this in the year of, 
and so we took people who normally produce claims and piled 
them onto the GI bill process just to get people manually into 
school that first semester, and then we begin building an 
automation tool that would take over, and we have done that. 
And so we have a little track record here of figuring out how 
to do both things at the same time, manually put people in 
school and build an automation tool.
    In the second year I added Agent Orange claims to the 
process, about 250,000 claims. Because these were longstanding 
issues from the Vietnam period, they go to the head of the 
line. The right thing to do, but it imposed another force on 
this claims process, and that is why I say this IT solution is 
something we must have. I do not know that there will not be 
another secretarial decision someplace, you know, supported by 
the Congress, that would say you need to fix this issue. I 
mean, we have these coming up from time to time, but we will 
not be able to knock this backlog down without the IT solution 
here. So let me call on Secretary Hickey to do that.
    Ms. Hickey. Congressman Austria, thank you very much for 
your question. I will just add a little fidelity onto the 
impact of the Agent Orange decision first by saying it was 
absolutely the right decision. That took 37 percent of my very 
best workforce to do those 50-year-old complex claims that 
required us to go back through all 50 years of law that had 
been enacted between those times. I readily admit it took a big 
chunk out of our workforce. So today----
    Mr. Austria. If I could interrupt, was that accounted for? 
Because I agree it was the right decision, but was this all--
was there any accounting for this? When you say it took a big 
chunk out of your budget from a budget-planning perspective----
    Ms. Hickey. Congressman Austria, the way the process works 
in a very quick snapshot is it essentially is enacting a 1991 
law that Congress provided to us that we don't get to say we 
don't, with the process, do it because it is constrained by 
dollars or budget. It absolutely is linked to medical science 
in a process which we go through that the Secretary must act to 
make the decision on the presumptives, regardless of budget 
implications.
    So in this case that is exactly what happened, and we 
reacted as a result of that. The medical science simply 
provided enough at that point in time to make the connection 
for those three new presumptive Agent Orange conditions.
    Secretary Shinseki. But it was not budgeted for.
    Ms. Hickey. Not budgeted for, it was taken out of hide, as 
at any time that we get those new presumptive conditions, they 
come out of hide from a current existing workforce. So that was 
37 percent.

                INTEGRATED DISABILITY EVALUATION SYSTEM

    In addition, during the very same period, we stood up the 
Integrated Disability Evaluation System, which is the process 
by which we do our most severely wounded, ill and injured. We 
brought on four times the level of employees to do those claims 
that we normally do in order to really expedite our most-needed 
current-day Iraq and Afghanistan veteran movement from the DOD 
into their next veteran environment or life environment. So 
that impacted us at the same time.
    But at the end of the day, I will tell you that our average 
days to complete right now are about 230, way too high for 
where we need to be, but when I run claims through a paperless 
process, my numbers are like 130. That is a 100-day difference.

                                BACKLOG

    The other thing that I would just make a quick remark about 
is we have some confusing language around backlog. Backlog is 
any claim we have more than 125 days still in our hand. It is 
not our whole inventory. It is not our pending. It is the ones 
that are over 125 days only. So while 560,000 is not a good 
number either, that is truly what is in our backlog today, and 
if you look at the 260,000 we did for Agent Orange, you would 
see we would have a much lower number but for that issue. But 
it was exactly the right thing to do, and we are happy that we 
got to take care of and welcome home the right way our Vietnam-
era veterans.
    From the perspective of the transformation plan, I will 
just say right up front, if my friend to the left of me does 
not have a full and complete IT budget, I cannot get there from 
here. I will fail. That is how critical it is for us to save 
the time it takes. Why? Not just because it is an IT system. We 
are building rules-based calculators into the system that helps 
to organize the thought that goes into doing each one of these 
very complex claims for all of our body systems.
    Also part of this plan, I already mentioned the disability 
benefit questionnaires. I can now reach back into private 
medical physicians to give us the data we need, explicitly 
telling them what we need by each individual item in order to 
have the evidence we need to make that claim.
    We are also working very closely with DOD to redo the DD-
214 that gives us that service connectability that is so 
critical in the decisions that we make on claims. All of 
those----

                          PROBLEMS WITH SYSTEM

    Mr. Austria. I appreciate that, and I do not mean to cut 
you off, because I know we are short on time here, and I have a 
couple other questions, but with every new system there is 
going to be problems, because there were some cases brought to 
me where a constituent has filed a claim and provided records, 
I guess, for electronic filing, and they were lost by the VA 
not once, not twice, but three times now. I assume that is an 
isolated incident. We can talk about that.

                 COMPLETION OF ELECTRONIC HEALTH SYSTEM

    What I wanted to get at is how far along we are with this 
system, with the single electronic health system that we are 
going into, and a timeline as to when it is going to be 
completed. You mentioned you needed a full budget to move 
forward with this. You know, how much will that full budget 
move us forward as far as this timeline in completing the 
system?
    Secretary Shinseki. Let me call on Secretary Baker to 
address the Integrated Electronic Health Record that we are 
building with DOD.
    Mr. Baker. Thank you.

                      CHAPTER 33 LONG-TERM SYSTEM

    Let me touch on two things. We have talked about VBMS, the 
Veterans Benefits Management System, the paperless system, 
quite a bit. I wanted to just make the point that we have done 
a lot of things for what we call risk reduction--a better term, 
``increased confidence''--in the delivery of that system. In 
implementation it looks a lot like the Chapter 33 long-term 
system that we have implemented very successfully. That 
automation system now underpins everything we do in education, 
and it has greatly reduced the amount of time required to 
implement those----
    Secretary Shinseki. The GI bill.

                    PILOTS FOR THE PAPERLESS SYSTEM

    Mr. Baker. The GI bill system. Sorry, thank you.
    The second thing is we have implemented pilots for the 
paperless system, you know, processing real, live claims 
through that system to do a risk reduction piece of that which 
makes us highly confident in what we are going to see in July.
    If I then switch to the Integrated Electronic Health 
Records system, we got started on that realistically this past 
summer. We have the management in place, we have the office in 
place, we have started to deliver software out of that. In two 
facilities right now we have delivered software that allows a 
clinician to have a consolidated view of VA health records and 
DOD health records and to look at them together on the same 
screen. We are also moving forward on about 25 different 
projects, different pieces of that IEHR to move it forward. The 
first real deliveries of that from a consolidation in a 
facility, and running in a facility is about 2 years out.
    Mr. Austria. Mr. Chairman, can I ask one more question just 
to follow up?
    Mr. Culberson. Sure. That is fine.

                             HOMELESS WOMEN

    Mr. Austria. This has to do with the homeless situation and 
the women issue that I think either Mr. Farr or Mr. Dicks 
brought up, which I think is extremely important. I want to 
take this over to the homeless side on what is being done. You 
mentioned 60 percent of new construction projects are aimed 
towards women projects. I believe it is 17 percent resourcing 
of the increase from 158----
    You know, we, first of all, want to commend you on the good 
work you are doing. I have seen in our area on dealing with the 
homeless issue, we are seeing a rise in increase on the women's 
side, and what specifically has been done on the homeless side 
with women?
    Secretary Shinseki. Dr. Petzel.
    Dr. Petzel. Thank you, Mr. Secretary.
    Congressman Austria, you put your finger on a very 
difficult problem, and that is homeless women. They are at 
tremendous risk, and they are very vulnerable. And we have done 
several things. One is that it is very important to find 
temporary housing that specifically is able to deal with women 
and with women with children in a safe environment. The VA has 
pioneered around the country, contracting for these grant and 
per diem programs to provide temporary housing around the 
country, and we have stimulated a renewed interest in building 
and opening up facilities that are just for women. I was just 
out in Seattle about 2 months ago and toured a facility.
    Mr. Austria. I just toured one myself, and I want to 
commend you.
    Dr. Petzel. This is very important. It has been a neglected 
area. That is one.

                           SERVICES FOR WOMEN

    Two is that we work very closely with General Hickey and 
the VBA in terms of making sure that the specific services in 
terms of education, particularly jobs, et cetera, are matched 
with women in the Veterans Benefits Administration.
    And then finally we have developed a separate outreach 
program for women, for homeless women, a separate set of case 
managers and outreach coordinators whose specific and only job 
is to be on the streets identifying homeless women and getting 
them in contact with and making sure they get involved in the 
services that they need.
    Mr. Austria. And I appreciate your efforts and hard work in 
that area. I have been corrected by my staff; it was Judge 
Carter who brought that up.
    With that, Mr. Chairman, I will yield back, and I will save 
my other questions for the second round. Thank you.
    Mr. Culberson. Sure. I believe I will submit most of mine 
in writing.
    I want to pass to Mr. Bishop. We have had a long afternoon. 
I am sorry, Mr. Nunnelee. And I do want to follow up on the 
good question my friend Sam Farr asked, and that is I hope the 
VA--Sam, you correctly point out we ought to do a little better 
job of trying to identify how to prevent post-traumatic stress 
syndrome. And, General Shinseki, in your experience, and 
certainly now in your work at the VA, Dr. Petzel, certainly the 
VA has got to be able to have identified by this point some of 
the common characteristics of young men or women who suffer 
from post-traumatic stress disorder.

                     AVOIDING MULTIPLE DEPLOYMENTS

    It seems to me avoiding multiple, multiple, multiple 
deployments, give them more time with their family and homes, 
and after someone is deployed a certain number of times, you 
ought to cut them a little slack and let them do something else 
perhaps is an obvious one. Have you found a way? Are you 
working with DOD to help, for example, identify? What should 
the DOD do to help prevent this? It is a great question, Sam.
    Mr. Farr. The point was that you get the fouled up--you 
know, after deployment or whatever that has people go into 
PTSD, you have all the knowledge of that, and are you teaching 
the military how to prevent it?
    Secretary Shinseki. I think we are both learning more about 
this issue of PTSD. You know, it has been there throughout the 
generations that have gone to war. It is just more pronounced 
in this generation, I think, maybe because we acknowledge it 
and we are looking for it.
    For all those who go through combat, I think all of them 
come back, I call it, carrying baggage, and that is having the 
effects of having been exposed to an environment where there is 
super-vigilance, high stress, high intensity. You have got to 
have it right every time; you cannot make a mistake. This is an 
errorless kind of environment.

                         POST-TRAUMATIC STRESS

    When you live like that for months, a year, and then you 
come home, and you have a short period of recuperation, and 
then you are training to go back, and even in the training the 
stress is rehearsed so that you go back on a second tour, third 
tour. What it really means is that over an extended period of 
time, you are never out of the bubble, and it would be 
unnatural for us to expect that young men and women would not 
be feeling the stress, the effects of that. I think anyone who 
has been through that experience will come back with what I 
would call PTS, post-traumatic stress. I think that universally 
all of us carried that baggage.

                              PTSD VS. PTS

    What is tough for us to decide is the D, the disorder. Why 
would two people go through the same essential experience and 
one end up with the disorder, PTSD, which is the more serious, 
and while the others, the PTS folks, can transition over time 
and get back to a stable circumstance? Folks that suffer the 
disorder need professional help. They won't make that 
transition on their own, and, in fact, if it is not diagnosed 
and not treated, there is good evidence it gets worse.
    Mr. Culberson. What is your personal opinion, what causes 
the difference between them?
    Secretary Shinseki. This is more technical in terms of the 
science, but I do think there is something to be said about 
personal resilience. I think there are some folks that can cope 
with the stress--I do not know why--better than others, and so 
I will defer to the physician in the room to maybe provide some 
insights.
    Mr. Culberson. It is a really valuable question. You serve 
on Armed Services, I guess, too, do you not, one of your 
subcommittees?
    Mr. Farr. No, I do not.
    Secretary Shinseki. But we screen every veteran who enrolls 
in VA. Every veteran who comes to us from Iraq or Afghanistan 
we screen, and it is a simple test, and it will indicate to us 
whether a follow-up appointment is required for those that may 
have the D, and that is what we are looking for. Our experience 
is if we diagnose and we treat, people get better. Some take a 
longer time, but if we do that, they get better.
    Mr. Farr. I mean, I totally agree with your assessment. I 
lived over a different format. I was a Peace Corps volunteer, 
but certainly came home with post-traumatic stress. I mean, I 
lived in a very poor barrio without running water and lights, 
and to come home to, you know, everybody taking everything, 
taking hot water and refrigeration for granted, hot showers, 
just drove me nuts.

                    AUTOMATICALLY PROVIDING THERAPY

    But what about assuming or giving the presumption that they 
may all need it, may need some treatment, rather than having to 
prove that you have got the disability, and essentially 
wouldn't it be--to automatically provide all OEF or OIF 
veterans with 3 months of therapy with a licensed mental health 
professional if they choose to use it?
    Secretary Shinseki. If they are an OIF/OEF veteran, they 
have access to us, and so if they want it, it is----
    Mr. Farr. Don't they have to come to you and get assessed 
as to whether they need it?
    Secretary Shinseki. They have to enroll with us. Let me 
call on the doctor here to provide some insights.

                    RECOGNITION OF HAVING A PROBLEM

    Dr. Petzel. Thank you, Mr. Secretary.
    They do have to come; that is, we need to see them, as we 
would if we were providing, you know, treatment to everybody. 
One of the difficulties is that many of them don't come, just 
like they wouldn't accept--you said, 3 months of therapy, most 
people would not do that. They would turn that down. That is 
one of the difficulties is the recognition of the fact that 
they have got a problem.
    Mr. Farr. Well, that is why I brought up the network of 
care, because what they have done is not only inventory all of 
the veterans programs there, but all of the--what I call the 
civilian programs that are in the community, where a veteran 
may not want to necessarily plug back into what he just came 
out of for the stress that they are having, and if they can go 
to the civilian community which is authorized already by VA to 
provide those services, it just makes it more user friendly 
from the community standpoint than from the Washington veterans 
silo that we have.

                         CLINICS IN RURAL AREAS

    You have to run the military from the top down, but you 
have switched the whole thing the minute they are released, you 
really run it from the bottom up. And I think we need to have a 
much better handle on what that--you know, we have been issuing 
the discussions about rural access to rural veterans because 
most of the hospitals and obviously clinics are in much more 
urban areas. And I think about people in south Monterey County 
would have to go to Palo Alto, it is about a 2\1/2\ hour drive, 
they live in a little tiny town, they are not going to go to 
Palo Alto. That is why I am very excited that you just 
announced the clinic. We still have some distance problems, but 
it is going to be more accessible.
    What I am also interested in is getting our professional 
civilian community, doctors, and having licensed therapists to 
be able to administer this in maybe your own little tiny town 
of 2,000, 4,000 people, that say, yes, you have got a 
professional right down the street, you may have gone to high 
school with them, why don't you go down and talk to them about 
your problem?
    Dr. Petzel. Congressman, particularly for PTSD, we do 
contract all over the country. I come from Minnesota, 
Minneapolis, and our vet center program had contracts for PTSD 
groups all over the State, Mankato, Alexandria, small towns 
that were quite remote from the VA Hospital. So that is being 
done. I cannot speak specifically for the issues right in the 
Monterey area, but it is being done.
    Mr. Farr. But would a veteran, say, know that without--I 
mean, your Web sites are all kind of to a specific thing. There 
is a web site if you want to go back to school, a different Web 
site if you want health care. Why not just plug it all into one 
and try to make it, the information that they may need, as 
local as possible?
    Dr. Petzel. That is an excellent idea. The way it works now 
is they come to us, and then we find that they are living a 
distance away, we arrange for them to be in that community 
group that has already been set up. You are absolutely right, 
we should have very available information on a Web site, and we 
are going to look at that, see if we can make it more 
accessible.

                         POST-TRAUMATIC STRESS

    Mr. Culberson. To follow up on the post-traumatic stress 
questions, too, you have undoubtedly, in the years that you 
have dealt with this in the Veterans Administration, identified 
characteristics that would--some common characteristics of 
either individuals or the type of service they have encountered 
that would, in your opinion, tend to lead to post-traumatic 
stress disorder.
    Dr. Petzel. Yes, Mr. Chairman, we have. First of all, let 
me just make a couple comments about cooperation with Defense, 
because I think it is an important theme.
    Mr. Culberson. That is where I am leading. That really is a 
good suggestion Mr. Farr makes, and I want to know if we should 
not try to foster that relationship a little further, perhaps 
with some language in our bill.
    Dr. Petzel. Secretary Gates and Secretary Shinseki had 
several years ago a mental health summit, brought together the 
best in mental health providers from both systems, and it came 
out with 28 tasks, if you will, that involved primarily the 
integration of activities. Many of them dealt with PTSD. One of 
those was, as an example, was coming to a mutual agreement 
about how we are going to treat PTSD so that when a soldier 
leaves the military and is being treated, he sees or she sees 
the same environment when they come to VA.
    VA pioneered two behavioral-based therapies. That is 
working very well. They have also agreed on common ways to 
identify PTSD, and we have agreed on some common research 
project, which is getting at the point you were making earlier, 
and that is looking at a group of--intensively a group of 
people about to be deployed, and then evaluating those 
individuals postdeployment. The VA has done two large-scale 
studies of more than 500 people in each one of the studies and 
is beginning to identify some characteristics that might 
predict that somebody was more likely to have a longer-term 
disorder.

                       SOCIAL SUPPORT STRUCTURES

    Social support structures is an example. People who come 
from families where there is strong social support, et cetera, 
are less likely to have difficulty than those that come from 
dissolved families. People that have had chemical dependency 
problems prior to being in the military or prior to being 
deployed are more likely to have some difficulties when they 
come back. Those are the kinds of things that are helping us 
identify who might be at risk.
    Mr. Culberson. Well, it is----
    Mr. Austria. Mr. Chairman, could I add something?
    Mr. Culberson. Yes, certainly, please, Mr. Austria.

                    STUDIES ON MULTIPLE DEPLOYMENTS

    Mr. Austria. Have you done any studies to show about 
anything regarding multiple deployments? Because the question 
came up whether the multiple deployments--and it used to be 
lengthy deployments--was having an impact on PTS.
    Dr. Petzel. First of all, the Secretary just pointed out we 
are investing about $30 million in PTSD research in 2013. It is 
a big part of our research budget. There is controversy in the 
literature about multiple deployments. There was an article 
published in the New York Times citing the RAND study back in 
2009 where they found that--this is not PTSD, but 70 percent of 
the suicides that occurred in the military were in people that 
had never been deployed or only had one deployment. So from 
that perspective, it looked like it did not make a difference. 
On the other hand, the studies over the last several years have 
indicated that multiple deployments do seem to put individuals 
at greater risk for difficult----
    Mr. Culberson. Common sense.
    Dr. Petzel [continuing]. Problems. That is common sense.
    Another interesting comment, however, was made by one of 
the authors, in that, multiple deployments done successfully 
may indicate a resilient individual who is not going to have a 
long-term difficulty. So there is sort of conflicting 
information about this right now.
    Mr. Bishop. Will the gentleman yield?
    Mr. Austria. Certainly.
    Mr. Bishop. When I was on the Defense Subcommittee, we 
started this, I guess, about 4 or 5 years ago, and one of the 
areas of confusion was that it was not the deployment 
necessarily itself. Well, first off they found that exposure in 
theater for 2 weeks brought the onset of some kind of PTSD. The 
severity of it varied with the individual and circumstances. 
But the other thing was for the suicides and the other 
antisocial behavior many times was a result--well, you know, 
multiple deployments, because the multiple deployments 
exacerbated other problems that the soldier----
    Mr. Culberson. Preexisting.
    Mr. Bishop [continuing]. That the military person or 
veteran may have had, being away from family, stresses on the 
marriage, stresses on the children, and the events where there 
are--and a lot of divorces occurred with multiple deployments. 
So the veteran often committed suicide or engaged in some other 
volatile conduct, even if it was reckless conduct that hurt 
himself. And that was related to and associated with multiple 
deployments, which is why we adjusted the dwell time and 
increased the end strength in order to relieve the multiple 
deployments. That was what that was all about in addition to 
what later was determined to be the surge.
    Secretary Shinseki. I think, Mr. Chairman, some of us have 
some instincts about this, you know, just sort of common sense 
that that would be, but for the science they need the data and 
the research. So we are investing in that piece of it.

                        STIGMA OF HAVING ISSUES

    But I get to a number of the colleges where we have young 
GI bill veteran students, and I usually am able to get a 
gathering with them, 20, 30, 40, and the issue that Dr. Petzel 
brought up about sort of this denial, the stigma of being 
identified as having issues, it keeps coming up. You know, I 
will have a room full of 20 of them. I will say, you are all 
carrying baggage, and there is this pause. First of all, I ask, 
how many of you are combat veterans, and most of the hands go 
up. And I say, well, you know, you are carrying baggage. And 
there is this pause, and then you can almost visibly see them 
sit back in their chairs. It is the Heisman, ``not me.''
    There is a huge challenge in dealing with this, and that is 
to destigmatize the treatment of mental health, PTS, because, 
as I say, if you have been in that high stress situation and 
been in it multiple times, it would be unnatural for you not to 
be carrying baggage, and we need to get that as an acceptable 
fact in front of our young people.
    Mr. Culberson. Well, and recognize that may also be their 
individual way of dealing with it. You know, it is distinctive 
to a lot of Texans, just suck it up, deal with it. You know, 
that is sort of a Texan--part of the genetic code of a Texan, I 
guess, or all of us in America, you know.
    Mr. Bishop. Mr. Chairman, that was one of the responses 
that was so common, that the command from the Joint Chiefs, 
they issued a directive all the way down from the Joint Chiefs 
all the way down to the unit level to destigmatize.
    Mr. Culberson. And that is important. Obviously, we all 
deal with it in different ways, I am sure.
    Mr. Bishop. There has been a lot of effort to change the 
culture of both the Marines and the Army, particularly in that 
situation, and one of the things that was supposed to be made 
for the officers as a part of their report of performance, 
whether or not they were successfully doing that, because there 
was a time when the drill sergeants said, hey, suck it up, as 
you say. But that is no longer supposed to be the culture.
    Mr. Culberson. We want to make sure to destigmatize it, but 
you also want to, I think, where I hope a lot of this is 
heading, Sam raised this, all our questions are focused on our 
concern for our young men and women and their mental health, 
their physical health, and particularly in light of this 
terrible tragedy that just occurred in Afghanistan, which I do 
not know whether this individual had any history, whether he 
brought any preexisting condition of mental illness or whatever 
baggage he brought with him to this terrible murder that took 
place in Afghanistan.
    What is the Department of Defense doing? Sam raises a great 
question. Have they reached out to you? Is there any formal or 
informal cooperation between--with the DOD reaching out to you 
all to say what sort of things should we be watching out for? 
Of course we want people to be resilient; of course we want 
them to try to suck it up. There are some that just cannot. 
Like you say, we want to destigmatize it and make sure they are 
getting help if they need it. To what extent is DOD reaching 
out to the VA for expertise and help?

                     NATIONAL MENTAL HEALTH SUMMIT

    Secretary Shinseki. Ongoing work, Mr. Chairman, that 
started by--as Dr. Petzel indicated, early on in both of our 
tenures, Secretary Gates and I put together a mental health--
national mental health summit to bring together DOD and VA to 
compare notes, to see what we could harmonize between our two 
systems, and that discussion continues. In fact, part of the 
discussion now is about a transition assistance program that 
allows service members to begin preparing for their departure 
from the military well into their final months and not in the 
last week, so that we give them time between with the two 
Departments working together, have them make their decisions. 
Are you going to go to school? Is it going to be a college? Is 
it going to be a vocational training? Are you looking for a 
job? So that we have them on a vector when the uniform comes 
off. One of the things we find out of the PTS experience is 
that if there is structure to your lives, strong family 
surrounding you; people manage to get through that transition.
    Mr. Culberson. Sure.
    Secretary Shinseki. It is when you are isolated and without 
a direction that the difficulties begin.
    Mr. Culberson. Very true. Again, common sense.
    Secretary Shinseki. So what we want to do is have the 
vector well defined when the uniform comes off. In all of our 
experiences, with our own families, children go to college, 
and, that is a long process. That is not the last 5 months. You 
start the visitation of schools, and you start discussing what 
programs. You know, when the decision is made, it is well 
before graduation day from high school.
    Mr. Culberson. Sure.
    Secretary Shinseki. We need to take the same approach with 
youngsters who have been off on their own overseas, and don't 
have that family support mechanism to get them through the 
decision wickets, and help them on a road to success.
    Mr. Culberson. Another reason you are so beautifully suited 
to what you are doing today, sir, and we thank you for that.

                        EBENEFITS AND HEALTHEVET

    Secretary Shinseki. In that period we want to link them up 
with eBenefits so that they are tied in to VA for their 
benefits programs; and My HealtheVet, so they are tied, while 
they are still in uniform, to VA for health care, and when the 
uniform comes off, we have captured all the information we 
need.
    Mr. Culberson. I want to be sure to pass to Mr. Bishop, if 
I could, just to conclude my piece on this, then go to Mr. 
Bishop, and Mr. Farr has another follow-up on this. I hope all 
of this will lead to the encouraging the military to do fewer 
deployments for our men and women. This is our most precious 
asset are our people, and I do hope we are not--as an All-
Volunteer Force, we want to be sure we are not overusing those 
wonderful men and women, and giving them time at home with 
their families and loved ones is perhaps the best way to avoid 
post-traumatic stress.
    Sam had a follow-up, and I will pass it to you, Mr. Bishop.

                           GUARD AND RESERVE

    Mr. Bishop. These are the issues we have really been 
wrestling with for about 6 years, and I am just hopeful that we 
actually will get a handle on it. I will just leave it there, 
because with the Military Family Caucus, which I cochair with 
Kathy McMorris Rodgers, we have been working with Active Duty, 
Guard and Reserves, and all of the veterans service 
organizations, and the Active Duty family organizations, the 
White House, and the Blue Star families and all to deal with 
these same issues. They are chronic, and they are very, very 
complex issues. The overlooked aspect is often the Guard and 
Reserve, because they come home as soon as they finish their 
deployments. They do not really have a transition period. They 
go right back to work, right back to families. And if they come 
home and things are not the way they expect them to be, that is 
going to be aggravated because of their having been absent. We 
may have some bad outcomes.
    The total transition program is more complicated when you 
are doing it when the Regular soldier comes home because he 
wants to get back to his family; he does not want to go through 
that transition period. He has been away, and he--so he will 
skip it, he will pretend that everything is okay.
    But the one thing that has happened is we have been doing--
and we have gotten the Motion Picture Association involved and 
the actors guild, and they are doing a lot of celebrity public 
service announcements encouraging the vets to--if they are 
having symptoms, to call the 1-800 number. There is some 
anonymous 1-800 numbers that are being set up, there are 
anonymous programs, and we have funded various approaches to 
deal with the PTSD which can allow a veteran to not worry about 
the stigma and can actually call somebody. And there are some 
programs and some research where they actually go in one on 
one. But it is a very complicated issue, and it has been--it 
was identified, a while ago, but the DOD has been really 
actively trying to get a handle on it for about almost 6 years.
    Mr. Culberson. Mr. Austria.

                         DIFFERENT TASK FORCES

    Mr. Austria. Thank you, Mr. Chairman.
    I could not agree more with what you said, and I think two 
things, Doctor. The task force or whoever it was that put these 
28 different tasks together, is that available that you can 
share that with the committee? I think I would be very 
interested in that information, because everything that has 
been said here I agree with.
    And I think, you know, I have heard mixed reports about 
multiple deployments, how resilience gets built up. Much of it 
is voluntarily--volunteer as far as multiple deployments. But I 
would like to get the facts on this and try to really focus in 
on what the cause is, what the problem is, and assuring that 
there is awareness out there of the problem that exists; that 
our men and women are not in denial, but understand that there 
is an outlet they can go to, and they should be aware of this 
in helping to destigmatize this.

                     VETERAN-OWNED SMALL BUSINESSES

    I have one other area, Mr. Chairman, while we have the 
Secretary here, if I could, and that is kind of going to a 
whole different area, I know we talked about this briefly, but 
the service-disabled, veteran-owned small businesses. We have 
had now a couple of situations in our district. One in 
particular I think I brought to your attention, a company in 
our district by the name of JJR Solutions, a small business. I 
know the Congress regulated this a number of years ago, at 
least that is my understanding, to try to weed out fraud and 
abuse and to make sure the bad actors were not participating in 
this program. But what we are seeing is, in my opinion, some 
unintentional consequences towards small businesses where maybe 
an application was filled out wrong, information might be old, 
and that is being held against them, and they are being put to 
the back of the line as a result of that and having to wait in 
this particular case 2 years, which we are going through a 
difficult economy, they are struggling, trying to move forward.
    How are we dealing with this, with these type of cases, and 
how are we trying to move forward and trying to assure that the 
bad actors are taken care of and are out of the system and not 
participating, but those small businesses that are doing good 
with this program, we are able to support them and continue to 
move the program forward?

             VERIFICATION OF VETERAN-OWNED SMALL BUSINESSES

    Secretary Shinseki. I think, Congressman, you know the old 
system was self-verify, where they could self-certify that they 
met the requirements of veteran-owned small businesses. I think 
all of us are disappointed in seeing that there were some who 
did not qualify who were actually taking down contracts that 
should have gone to other valid small business, veteran-owned 
small businesses. With your help we created a policy with more 
teeth in it, and it requires verification to include going 
through documents and visiting, the site of the business.
    It initially was slow because of the volume of having to 
make those conversions. I think at one point there were 26,000 
small business owners on our rolls. We have worked through much 
of that. Once certified, a small business, if there are no 
changes to their ownership or their operations for the 
following year, are able to write to us and tell us that is the 
case. They will then be continued for another year under that 
program in order to spare going through all of the work again.
    We are trying to accelerate this certification, but the 
change in policies did create an initial logjam that we had to 
get through.
    Mr. Austria. I think, you know, the point that I am trying 
to make is there has to be a plan in place, and you may have 
one in place that you are able to balance this process where 
there might be an unintentional error on processing the form, 
or something may have changed with that company where now they 
are being treated in some cases as falling under the bad actors 
that we are trying to get rid of. And I appreciate your 
response on that, that in this particular case, you know, he 
has been pushed back 2 years and now being pushed back again 
because the situation did change with this company.
    Secretary Shinseki. If you will provide me again the 
particulars, if this is the same case, then I will look into 
it.
    Mr. Austria. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary.
    Mr. Culberson. Not at all. Thank you, Mr. Austria.
    Mr. Farr.

                        CONGRESSIONAL RESOURCES

    Mr. Farr. I want to conclude, and I want to thank you. I 
think we have seen in this committee since we really started 
helping VA with some resources, Congress really gave you the 
resources, I think you have done a remarkable job. It is a huge 
bureaucracy, and just the internal changing of that mindset is 
a difficult struggle.
    I think in the process you have also been able to learn a 
lot about services that we don't have, and what I have seen the 
need to have is a much better understanding of the needs of 
veterans at the local level, at the home level. We have left it 
up to essentially a silo of Federal Government, DOD. We recruit 
from local high schools and colleges, making enlisted and 
officers, and then put you back, and the community does not 
know what you have been through, and they are not ready.

                      NOT PROFESSIONALLY PREPARED

    We are not professionally prepared at the local level to 
handle these issues, and I think that is the educational 
process that we also need to share, and I appreciate convening 
DOD, mental health, and veterans mental health for discussing 
these things. I think we also need to convene our county mental 
health officers, too, in this process, because I think we have 
to be better at receiving people at home.

                          MANAGEMENT PRACTICES

    Lastly, let me just suggest because you have a lot of 
abilities to do carrot and stick. I think if you can learn best 
management practices and encourage States--because this is 
really up to States and local governments--to implement 
something on the ground. For example, in California they did 
something smart. They hired veterans that came out from Iraq 
and Afghanistan, turned them around and said, we want you to 
approach every single Californian who is separating. Now, you 
are young, you have been there. It is not Second World War old 
vets or Korean War, right there. They reach out to them while 
they are still in the service and say, welcome home, can we 
help you? You know, you want to go to school? Here is some 
things we have learned. This is stuff you are going to face. So 
the State veterans department is using today's vets to brief 
and welcome people home.
    I mean, just as you were talking, I was thinking way back 
when I was in the California Legislature, the California 
Highway Patrol, which is considered one of the Cadillac law 
enforcement agencies in the State, requires that every officer 
who draws a gun, just draws it, has to have counseling, and if 
he pulls that trigger or she pulls that trigger, it is 
mandatory counseling for the spouses and children. I mean, it 
is mandatory in the sense that it is there. I am not sure that 
they force you to have to go to it.

                          MANDATORY COUNSELING

    But it is very interesting that maybe we ought to have 
that; that if you are separating from the military, you have 
been deployed, maybe we would change the whole stigma by saying 
everybody has to go through some counseling, counseling to come 
home, counseling to be a husband again, counseling to come back 
to the United States, turn the burden around so that the cost 
of cure is not as expensive as it is.
    That ounce of prevention is worth that, counseling in the 
Highway Patrol, and certainly counseling wherever we have it. 
And we struggled with this for years in trying to get over the 
stigma of officers, admitting that you could get an advancement 
if you had mental health counseling. For years everybody 
thought that was the end of your career, and if you have 
officers come out and say, no, I went through it, and I got my 
promotion, and you can, too. Those are the kinds of things I 
think we need to encourage more and more, but perhaps this is 
sort of removing the stigma and just saying everybody has it.

                     MEASURING THE QUALITY OF CARE

    Mr. Culberson. Sam, thank you.
    One suggestion I would make perhaps in terms of Sam 
triggered in my mind is I asked the--I know that you all worked 
with Deloitte & Touche in the past, and Rep. Tom Davis is an 
old friend, and I suggested to him, how do you measure the 
quality of the care the veterans are receiving? How do you 
measure the need that still exists out there? I have been 
fascinated by social media since it first came out. I gave up 
on Twitter. I was the first Congressman on Twitter, and I think 
I was the first to bail out. It started getting weird, so I got 
out. But Facebook is still----
    Mr. Farr. Do not send them any pictures.
    Mr. Culberson. That is right. A little common sense.
    I am afraid I have to go, and I know Mr. Bishop has to go. 
But, Secretary Baker, you are going to be coming to see me next 
week. I really want to put the idea in your head that we need 
to crowdsource the Veterans Administration, and you ought to be 
able to develop an app that every veteran using a smartphone, 
while downloading their iPhone, their BlackBerry, whatever, 
that will allow them to measure the quality of care they are 
receiving, wherever they are, whether it is John Carter's 
brother-in-law, a blind man walking into a hospital from a cab 
mystery shopper, so to speak, sort of thing; to crowdsource the 
Veterans Administration, measure the caliber of care, where is 
the need, tools are there, the information technology is there, 
so I am going to talk to you about that next week.
    Deeply appreciate your service, all that you do. It has 
been a really worthwhile and thoughtful conversation today, and 
we deeply appreciate your service to the Nation. I look forward 
to working with you in the weeks ahead as we develop our bill.
    We will also have questions for the record in writing.
    Mr. Culberson. And we deeply, again, appreciate your time 
here today, and your testimony, and your service. And the 
hearing is adjourned. Thank you.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



</pre></body></html>
